<html>
<title> - HEARING ON SAN FRANCISCO NOVEMBER 2007 OIL SPILL CAUSES AND RESPONSE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



       NOVEMBER 2007 SAN FRANCISCO OIL SPILL: CAUSES AND RESPONSE

=======================================================================

                                (110-89)

                             FIELD HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                COAST GUARD AND MARITIME TRANSPORTATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                 NOVEMBER 19, 2007 (San Francisco, CA)

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure




                                -------

                     U.S. GOVERNMENT PRINTING OFFICE

39-876 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001





























              COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             WAYNE T. GILCHREST, Maryland
JERROLD NADLER, New York             VERNON J. EHLERS, Michigan
CORRINE BROWN, Florida               STEVEN C. LaTOURETTE, Ohio
BOB FILNER, California               RICHARD H. BAKER, Louisiana
EDDIE BERNICE JOHNSON, Texas         FRANK A. LoBIONDO, New Jersey
GENE TAYLOR, Mississippi             JERRY MORAN, Kansas
ELIJAH E. CUMMINGS, Maryland         GARY G. MILLER, California
ELLEN O. TAUSCHER, California        ROBIN HAYES, North Carolina
LEONARD L. BOSWELL, Iowa             HENRY E. BROWN, Jr., South 
TIM HOLDEN, Pennsylvania             Carolina
BRIAN BAIRD, Washington              TIMOTHY V. JOHNSON, Illinois
RICK LARSEN, Washington              TODD RUSSELL PLATTS, Pennsylvania
MICHAEL E. CAPUANO, Massachusetts    SAM GRAVES, Missouri
JULIA CARSON, Indiana                BILL SHUSTER, Pennsylvania
TIMOTHY H. BISHOP, New York          JOHN BOOZMAN, Arkansas
MICHAEL H. MICHAUD, Maine            SHELLEY MOORE CAPITO, West 
BRIAN HIGGINS, New York              Virginia
RUSS CARNAHAN, Missouri              JIM GERLACH, Pennsylvania
JOHN T. SALAZAR, Colorado            MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            TED POE, Texas
DORIS O. MATSUI, California          DAVID G. REICHERT, Washington
NICK LAMPSON, Texas                  CONNIE MACK, Florida
ZACHARY T. SPACE, Ohio               JOHN R. `RANDY' KUHL, Jr., New 
MAZIE K. HIRONO, Hawaii              York
BRUCE L. BRALEY, Iowa                LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          CHARLES W. BOUSTANY, Jr., 
TIMOTHY J. WALZ, Minnesota           Louisiana
HEATH SHULER, North Carolina         JEAN SCHMIDT, Ohio
MICHAEL A. ACURI, New York           CANDICE S. MILLER, Michigan
HARRY E. MITCHELL, Arizona           THELMA D. DRAKE, Virginia
CHRISTOPHER P. CARNEY, Pennsylvania  MARY FALLIN, Oklahoma
JOHN J. HALL, New York               VERN BUCHANAN, Florida
STEVE KAGEN, Wisconsin
STEVE COHEN, Tennessee
JERRY McNERNEY, California
LAURA A. RICHARDSON, California

                                  (ii)



















        SUBCOMMITTEE ON COAST GUARD AND MARITIME TRANSPORTATION

                 ELIJAH E. CUMMINGS, Maryland, Chairman

GENE TAYLOR, Mississippi             STEVEN C. LaTOURETTE, Ohio
RICK LARSEN, Washington              DON YOUNG, Alaska
CORRINE BROWN, Florida               HOWARD COBLE, North Carolina
BRIAN HIGGINS, New York              WAYNE T. GILCHREST, Maryland
BRIAN BAIRD, Washington              FRANK A. LoBIONDO, New Jersey
TIMOTHY H. BISHOP, New York, Vice    TED POE, Texas
Chair                                JOHN L. MICA, Florida
LAURA A. RICHARDSON, California        (Ex Officio)
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)
























                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Bone, Rear Admiral Craig E., Commander, Eleventh Coast Guard 
  District.......................................................     9
Chrisman, Mike, Secretary, California Resources Agency...........     9
Conner, William G., Ph.D., Chief, Hazmat Emergency Response 
  Division, NOAA Office of Response and Restoration..............     9
Grader, Zeke, Executive Director, Pacific Coast Federation of 
  Fisherman's Associations.......................................    38
Hand, Captain Thomas, Bar Pilot, San Francisco Bar Pilots 
  Association....................................................    38
Hersman, Deborah, Member, National Transportation Safety Board...     9
Lewis, David, Executive Director, Save the Bay...................    38
Newsom, Hon. Gavin, Mayor, City of San Francisco, California.....     5

          PREPARED STATEMENT SUBMITTED BY MEMBERS OF CONGRESS

Farr, Hon. Sam, of California....................................    53
Stark, Hon. Pete, of California..................................    55
Woolsey, Hon. Lynn C., of California.............................    57

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Bone, Rear Admiral Craig E.......................................    59
Chrisman, Mike...................................................    64
Conner, William..................................................    72
Grader, Zeke.....................................................    91
Hand, Captain Thomas.............................................    99
Hersman, Deborah.................................................   101
Lewis, David.....................................................   103
Newsom, Hon. Gavin...............................................   111

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]






 
  HEARING ON SAN FRANCISCO NOVEMBER 2007 OIL SPILL CAUSES AND RESPONSE

                              ----------                              


                       Monday, November 19, 2007

                   House of Representatives
     Committee on Transportation and Infrastructure
    Subcommittee on Coast Guard and Maritime Transportation
                                                 San Francisco, CA.
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Golden Gate Club, 135 Fisher Loop, The Presidio, San Francisco, 
California, Hon. Elijah E. Cummings [Chairman of the 
Subcommittee] presiding.
    Present: Representatives Cummings and Richardson.
    Also Present: Representatives Pelosi, Lantos, Lee, Lofgren, 
McNerney, Miller of California, Tauscher, and Woolsey.
    Mr. Cummings. The Subcommittee is now in order.
    Speaker Pelosi.
    Speaker Pelosi. Thank you very much, Mr. Chairman.
    On behalf of the people of California, the Bay area, I 
thank you so much for being so responsive to the request of 
Congresswoman Ellen Tauscher, Member of your Committee, to have 
this hearing so soon, and especially in light of the holiday 
coming up.
    We are honored by our presence in our City. We are pleased 
to be joined by other Members of the Committee, Congresswoman 
Ellen Tauscher, Congressman Jerry McNerney, Congresswoman Laura 
Richardson, who will be joining us shortly, as well as many 
senior Members of our California delegation, from my right, 
Congresswoman Barbara Lee, Congresswoman Lynn Woolsey, Chairman 
George Miller, I mentioned Congresswoman Ellen Tauscher, 
mentioned Congressman Jerry McNerney, Chairman Tom Lantos and 
Chairwoman also, Zoe Lofgren.
    Mr. Chairman, as you have heard over and over, over the 
years from us, all of us has a personal relationship with this 
bay. Every person who lives in the Bay area feels a sense of 
ownership for it. It is a source of environmental safety. It's 
a source of commerce, whether it's fishing, or commerce passing 
through on ships through our bay, it is a source of recreation. 
It's always, always renewing our community, whether it's taking 
my grandchildren down there to play in the water, or all of us 
joining together to make sure that we have the dredging funds 
and that that dredging is done in an environmentally sound way.
    All of us have a stake, and have dedicated our work in 
Congress, in each of our offices, with a major emphasis on 
saving the bay. It is, as I said, a precious resource. Its 
biodiversity and fundamental role in commerce and recreation 
make it essential to the vitality of the entire region. 
Protection of the bay, its safety, and its health, has always 
been a priority, as I mentioned, for our Members.
    I remember when Chairman Miller went up, at the time of the 
Exxon Valdez, and he came back down and told us what was 
happening there, and informed us of how we needed to protect 
our bay. This oil spill and the quality of the response to the 
environmental disaster is of grave concern, given the harmful 
consequences that may have been avoided.
    Following that Exxon Valdez spill, some of us introduced 
legislation in the 101st Congress to amend the Federal Water 
Pollution Control Act, to require the President to develop a 
Fish and Wildlife response plan that would better coordinate 
the efforts of various Government entities to protect fish and 
wildlife against oil spills. That legislation became part of 
the more major Oil Pollution Act.
    And so, today's hearing will help us understand what could 
have been avoided and what more we can do, how to respond more 
effectively, and to, again, impress upon the Congress of the 
United States that this is not only important to us in our 
region, the San Francisco Bay is a national resource, a 
national treasure.
    I want to thank you, Mr. Chairman, once again for your 
leadership on the Committee of jurisdiction, for the generosity 
of your time and changing your family plans so that you could 
be with us today. I think it speaks eloquently to your 
appreciate for what this bay means to us.
    We are very proud in our community, Mr. Chairman, of our 
Mayor, who was recently reelected and will be our first witness 
today.
    I'll yield back to you to recognize him.
    As Speaker of the House, I am a witness and observer of 
this hearing, because I don't serve on any Committees. But, I 
wanted you to be sure to know how important your visit is to 
us, how important this bay is to our community and to our 
country, and thank you once again for joining us today.
    Mr. Cummings. Thank you very much, Madam Speaker, and 
before I begin, and first of all, I also thank you for your 
sense of urgency. Urgency is so very important, particularly, 
in these critical types of situations.
    Before I begin, I ask unanimous consent that the following 
Members of Congress may sit with the Subcommittee on Coast 
Guard and Maritime Transportation and participate in this 
hearing, Congresswoman Pelosi, the Speaker of the House of 
Representatives, Congresswoman Ellen Tauscher, a Member of the 
Committee on Transportation and Infrastructure, Congressman 
Jerry McNerney, Member of the Committee on Transportation and 
Infrastructure, Congressman George Miller, Congressman Tom 
Lantos, Congresswoman Lynn Woolsey, Congresswoman Zoe Lofgren, 
and Congresswoman Barbara Lee, and without objection it is so 
ordered.
    Of course, I also want to recognize the presence of 
Congresswoman Laura Richardson, who will be with us shortly, 
and is a Member, by the way, of this Subcommittee.
    I particularly thank Speaker Pelosi and Congresswoman 
Tauscher and the entire Bay Area delegation and their staffs 
for their assistance in organizing this hearing. I wanted to 
commend the Speaker and the Bay Area delegation for their 
leadership on this issue. They moved to hold this hearing and 
to begin oversight on this issue immediately, after the spill 
occurred.
    The leadership is exemplified by the Speaker's presence 
with us today, and it is my honor to have her with us. The 
Subcommittee convenes today in San Francisco, California, to 
consider the circumstances that led the COSCO BUSAN, a 992-foot 
ocean-going container ship flagged in Hong Kong to hit the San 
Francisco open Bay Bridge on November 7th, an event known as an 
allision.
    The allision created a gash of more than 200 feet long and 
12 feet wide in the side of the vessel, which in turn allowed 
approximately 58,000 gallons of intermediate fuel oil to rush 
into the San Francisco Bay. The consequences of this spill have 
been simply devastating, evident with every oil-covered bird 
and seal and in the desolation of every closed beach.
    It is the responsibility of the Congress to oversee the 
programs and operations of the Executive Branch. I've closely 
followed the reports of the events and the discoveries 
occurring in the wake of this catastrophe and, frankly, I'm 
deeply disturbed by and what I have been hearing. Too many 
questions remain unanswered.
    This year, the Subcommittee has been receiving testimony 
from the maritime industry and labor detailing the loss of 
expertise in the Coast Guard's Marine Safety Program. Today, we 
are here to shine a spotlight onto the problems in all aspects 
of the Marine Safety Program, including prevention, response, 
and investigation, that this accident again brings to our 
attention.
    If we cannot yet see clearly into every corner, or onto 
every oil-covered beach or isolated inlet, we will at least be 
able to point investigators in the directions where they should 
look for the answers we expect.
    Let me lay out just some of the questions to which we need 
answers. Should the Coast Guard have prevented this ship from 
departing the port in heavy fog? Frankly, I'm interested in 
understanding how this ship could hit this bridge, as its 
position should be obvious even to those not trained in 
navigation. The Bay Bridge is not a small marker or buoy 
floating in the water. It is an enormous landmark.
    Did the pilot understand the charts he was using to 
navigate the bay, and were there communication difficulties 
among the bridge crew members?
    There are also questions about why the Vessel Traffic 
Service, manned by the Coast Guard personnel, asked the ship's 
crew what its intentions were, rather than warning it of the 
impending allision.
    It appears, and I emphasize, that the final word on this 
matter will likely not be written until the National 
Transportation Safety Board completes its investigation, but it 
appears that this question was asked because the vessel was not 
completing a turn that is part of the normal course taken by 
ships heading to sea.
    However, it is also unclear whether the Vessel Traffic 
Service was even able to warn the ship of the impending 
allision, because the tracking systems in place in the service 
center are not advanced enough to provide the kind of detail 
that would be necessary for such a warning.
    Our National Vessel Traffic Service Systems were created by 
Congress as a result of a collision that occurred right here, 
under the Golden Gate Bridge in 1971, between the Arizona 
Standard and the Oregon Standard. Now, 36 years later we are 
back in the San Francisco Bay trying to understand why that 
Vessel Traffic Service did not, or could not, alert the COSCO 
BUSAN that its course would lead to disaster.
    Regarding the response to the oil spill, the initial 
estimates of the amount of oil discharged from the COSCO BUSAN 
were ridiculously low, particularly, given that the entire 
spill occurred in what, apparently, was a very short span of 
time. And, some eye witnesses reported seeing a large sheen 
almost immediately after the allision, despite the fact that 
they, apparently, had many assets in the water around the COSCO 
BUSAN, very quickly after the spill Coast Guard personnel 
initially reported that only 140 gallons had been released. It 
was not until some eight hours later that the Coast Guard 
investigators reported to the Unified Command that nearly 
58,000 gallons had, in fact, been spilled.
    Why were the initial reports of the total volume spilled so 
inaccurate? We are not talking about being off by a few gallons 
here. There's a significant difference between 140 and 58,000. 
Did the Area Contingency Plan, agreed to by the Federal, state 
and local agencies, have adequate provisions to enable them to 
contain a significant spill in this area before it spread 
throughout the bay region?
    And finally, what problems have occurred in the 
investigation of the cause of this marine casualty?
    We now understand that the drug and alcohol testing of the 
crew members and pilot did not conform to the Coast Guard 
regulatory requirements. We also understand that the Coast 
Guard investigators were unaware of, and did not obtain, a copy 
of the voyage data recorder that contained valuable information 
regarding conversations on the bridge, radar displays, 
electronic chart displays, and the heading and speed of the 
vessel.
    It is imperative that the Coast Guard and all parties to 
the this incident provide whatever information and records they 
have to the National Transportation Safety Board so that there 
can be a complete investigation, both of the events leading up 
to this accident, as well as of the responders' efforts.
    I also emphasize that our Subcommittee will continue to 
follow this investigation as it progresses, until we get clear 
and definitive answers to every question, no matter how 
uncomfortable the questions might be.
    Finally, before I close, I want to put the significance of 
today's hearing into a broader context. Since the beginning of 
the 110th Congress, when I assumed Chairmanship of this 
Subcommittee, our Subcommittee has been comprehensively 
examining the operational capabilities of the Coast Guard. The 
United States Coast Guard is an organization that is undergoing 
profound changes, as many of the agencies of the Federal 
Government have undergone after the terrible events of 9/11.
    Prior to 9/11, the Coast Guard was a service that combined 
such responsibilities as conducting research, rescue operations 
and law enforcement operations, regulating the maritime 
industry, protecting our Nation's marine resources and 
performing some military functions pertaining to security.
    After 9/11, while retaining all of these additional 
responsibilities, the Coast Guard has assumed significant new 
responsibilities for homeland security. The Coast Guard must 
ensure the security at ports and port facilities, it must 
assist in the roll out of the TWIT card that is intended to 
control access to secure port facilities, and it must conduct a 
variety of operations to ensure security around U.S. vessels 
and waterside facilities in Iraq.
    Our Subcommittee has been assessing how the Coast Guard, 
integrating these new responsibilities with the additional 
responsibilities, and in no way do we question how critical the 
new homeland security initiatives are, the security of our 
Nation is, obviously, the highest concern to me, to the 
Subcommittee, and to this Congress.
    I note that under the leadership of Speaker Pelosi, the 
first bill the current Congress considered this term was HR1, a 
bill that will increase the scanning of cargo containers 
carried to our Nation on ships from the current level of 
approximately 5 percent to 100 percent. However, the scene of 
oil scattered on the beaches throughout this region 
illustrates, in the starkest possible terms, how critical the 
traditional missions performed by the Coast Guard remain to our 
Nation, particularly, given our growing dependence on imported 
oil.
    I often say that the Coast Guard is our thin blue line at 
sea, and we absolutely must ensure it is not being stretched 
too thin as it continues to seek balance among its missions. It 
must be prepared to stand between our Nation's 360 ports, 
25,000 miles of domestic waterways, and 95,000 miles of 
coastline, and a spreading oil slick at the same time as it 
stands between us and the terrorists who threaten our Nation.
    It is my understanding that Members of the Committee will 
be submitting their opening statements for the record. Is there 
anyone that--everybody consents? Very well.
    Mr. Cummings. We will now hear from Mayor Newsom, and thank 
you very much, sir, for being with us.

  TESTIMONY OF THE HONORABLE GAVIN NEWSOM, MAYOR, CITY OF SAN 
                     FRANCISCO, CALIFORNIA

    Mayor Newsom. Thank you, Mr. Chairman, and thank you for 
being here and convening this Subcommittee, and I thank the 
Speaker for her leadership and her willingness to organize this 
so quickly after the oil spill and, of course, the 
congressional delegation from the Bay Area is about as good as 
it gets. So, we feel in very good hands.
    I will submit my written testimony as well, though I want 
to just very briefly, and I recognize the shortness of time, 
hit on five key points. One is the issue of notification, issue 
of incident command and response, volunteer management 
questions, issues that you brought up, Mr. Chairman, around 
navigational safety procedures, vessel control, and then the 
broader issues of clean-up and some closing comments.
    It is, indeed, true, as you say, Mr. Chairman, the 
notification was lax, and, in fact, arguably, there was no 
notification, even of the 140 gallons of oil being spilled. It 
turns out the incident that occurred, roughly occurred at 8:30 
in the morning, wasn't til at 9:24 that a part-time fire boat 
operator, name of Phil McCormick, called our Fire Boat 
Operations and talked to a Lt. Dudier, about this incident. The 
Coast Guard did not call us, Fish and Game did not call us, it 
was a part-time fire boat operator that called to say something 
is going on.
    We immediately began the process of coordinating potential 
dispatch of that fire boat, only to find out after we initiated 
calls to the Coast Guard that, indeed, there was an incident 
and they did not need our fire boat.
    We then began to receive phone calls from our port, and 
representatives of the City Government, that were complaining 
about employees with headaches and nausea, and this is at 9:30, 
9:45, 10:00, which was curious at best, in fact, precipitated a 
phone call with the port directors behind me saying, directly 
with me, thinking she, frankly, was over-reacting, to be 
candid, 140 gallons is significant, but I thought it was a bit 
of an over-reaction. Nonetheless, it precipitated in our desire 
to organize a conference call at 1:00 after the evacuation of 
our port and Pier One property was complete.
    Again, we initiated that conference call. We were fortunate 
to have on that conference call the Coast Guard, that did 
participate, but, again, only with the information confirming 
this 140 gallon spill.
    Hours went beyond the 1:00 conference call, and we were 
unaware that at 4:49 the state was notified that the spill was, 
indeed, much larger. Mr. Chairman, your comment about eight 
hours versus 12 hours, indeed, the State was notified of a 
58,000 gallon spill, 53,500 to 58,000 gallon spill, at 4:49, 
the City was not. At 4:49, no one from the State contacted us, 
6:00, 7:00 nothing had changed, still 140 gallons, 7:00, 8:00, 
8:30, 9:00, all of a sudden on the radio, I'm in my car and I'm 
hearing about the fact it's 58,000 gallons. This is before the 
conference call was initiated at 9:00 from the State OES with 
all the various agencies. So, I'm finding out pursuant to a 
press release that the spill was not 140 gallons, but 58,000 
gallons. Again, the State OES, apparently, had that information 
as well, and for whatever reason they did not notify us.
    Now, here's why I think they didn't. You have very 
different procedures under the Oil Pollution Act of 1990, that 
are absolutely foreign to the procedures that are well 
organized out here to deal with all hazards response, as it 
relates to earthquakes, et cetera. In fact, we just worked for 
two years with your support Homeland Security money to fund the 
first major regional emergency operation plan in the history of 
our State. We have very strong protocols, the State OES being 
the lead agency.
    In this case, pursuant to that Area Contingency Plan, Mr. 
Cummings, you reference, that protocol is different. The 
protocol in this place puts the State Fish and Game, 
respectfully, the Coast Guard, and ``the responsible party,'' 
in control of that organized effort, not the State OES and not 
the local agencies that exercise on just this type of protocol 
day in and day out.
    A consequence of that, we enjoyed a disorganized effort. We 
were in a liaison position, and let me say candidly, were not 
particularly embraced as liaison to this incident, nor were the 
other agencies around the Bay, local agencies, and we 
experienced an enormous amount of frustration in that first 24 
hours, say, actually, first 48 hours. These protocols must be 
addressed. They are 20 years old. You've got protocols in place 
for every kind of all hazard, but with oil all of a sudden all 
bets are off. Imagine if this was WMD, combined with oil, 
you've got chaos. We are just blessed, and oil is, you know, 
shouldn't be change the protocol just because oil is being used 
as a weapon here, and I think that absolutely must be addressed 
immediately. It's not a year, two, three years from now, that 
Area Contingency Plan needs to change immediately. You can work 
on the Oil Pollution Act later, but we've got to fix this Area 
Contingency Plan.
    A third area is volunteer management. This is a City that 
prides itself on volunteer initiative. They were completely 
left out in the cold. We, again, have protocols in place for 
earthquakes. We have protocols in place for all these other 
emergencies with regard to volunteering. In this case, we do 
not, and I know that Rear Admiral Bone will talk a little bit 
more about that, they have acknowledged both the notification 
questions and the issue of volunteer management. We now, 
though, proudly have 1,450 certified volunteers that have gone 
through protocol and process, which has been established. We 
are working with the Coast Guard, but these things, again, as 
part of the Area Contingency Plan, need to be adopted and 
improved.
    The issue of navigational safety procedures and vessel 
controls, you know, it's remarkable, Congressman Miller, I was 
listening to you on the radio this morning talking about these 
larger vessels. These vessels are larger because they are doing 
these wing fuel tanks, and they are not double hulled, and 
we've got to get these things, I don't care if it's bunker fuel 
or oil, no mammal on the Bay, no one who runs on the beach, 
could care less if it's oil or bunker fuel. These double hulls 
need to be addressed, and these ships that are faster and, 
obviously, are more prevalent in our Bay, are, potentially, 
more problematic because of these new strategies with these 
wing tanks.
    We recognize as well that the traffic control systems, the 
more accurate damage assessment protocols need to be advanced 
as well. We appreciate the investigation on weather, and 
language, and all the rest, these clearly are important.
    Clean-up, again, in the interest of time, very briefly, we 
just hope you are around a year, two, three, five years from 
now. It's what lies beneath the surface that I'm most concerned 
about. Yes, we are concerned about high tide coming in, but 
it's the plant life underneath. This is a migratory--one of the 
critical migratory areas, the Pacific Flyway, this is arguably 
the most extraordinary and complex urban estuary anywhere in 
the United States, again, 7 plus million people in this region, 
it's an extraordinary natural resource, and we need to make 
sure that our shell fish, our mammals, all our underwater 
plants, marshes, wetlands, estuaries and the like, are 
absolutely cleaned up.
    And finally, I do think it's appropriate to talk about the 
issue of issue energy and dependence. It is only going to get 
worse before it gets better. We'll be back ten years with 
another potential problem if we don't aggressively address 
this, this Congress is doing it, you haven't gotten the credit 
you deserve, keep doing it. We are ready to work with you. We 
are proud of our environmental stewardship, including a big 
tidal program right at the mouth of the Bay., We want to do 
more.
    The more we do, the more others can do, and the less likely 
we have to see an incident similar to this in the future.
    Again, that's in very broad strokes, very short strokes, 
what we've experienced, again, not dissimilar to what's been 
reported, frustration, finger pointing, sure, but we also 
believe moving from who is to blame to what to do, and I want 
to just underscore one point as it relates to moving away from 
who is to blame to what to do, when Rear Admiral Bone came in 
to San Francisco we were able to move away from who is to 
blame, and we began to focus on what to do. And, if there's 
anyone who deserves an enormous amount of credit, sure, tough 
questions, and he's get them, he's gotten them from us, it's 
Rear Admiral Bone, who has done an outstanding job, but again, 
we need to do a better job of advancing protocols, we need to 
make sure the State of California is front and center on this, 
we haven't heard enough focus on that, and better coordination 
with that area plan, and I think a review of that Oil Pollution 
Act 1990, because I believe that it is outdated and no longer 
relevant to the new realities post 9/11 and post Katrina.
    Thank you.
    Mr. Cummings. Mayor, thank you, thank you very much, and I 
understand there will be no questions. But, you have assured us 
that you were going to stick around, just in case the panel 
members may have some questions for you off the floor.
    Mayor Newsom. Absolutely.
    Mr. Cummings. Thank you very much.
    Mayor Newsom. Thank you, Mr. Chairman.
    Mr. Cummings. Thank you.
    Mr. Cummings. We'll now hear from our first panel. We 
welcome Rear Admiral Craig Bone, the Commander of the Coast 
Guard's Eleventh District, Ms. Deborah Hersman, Member, 
National Transportation Safety Board, Mr. William G. Conner, 
Dr. William G. Conner, Chief of HAZMAT Emergency Response 
Division with the National Oceanic and Atmospheric 
Administration, and Mr. Mike Chrisman, Secretary of the 
California Resources Agency.
    Thank you all for being with us. We would ask that you 
adhere to a strict five-minute rule. We ask that you summarize 
your testimony. We do have your written statements, and they 
will be made a part of the record.
    Rear Admiral Bone, thank you.

 TESTIMONY OF REAR ADMIRAL CRAIG E. BONE, COMMANDER, ELEVENTH 
    COAST GUARD DISTRICT; DEBORAH HERSMAN, MEMBER, NATIONAL 
 TRANSPORTATION SAFETY BOARD; WILLIAM G. CONNER, Ph.D., CHIEF, 
HAZMAT EMERGENCY RESPONSE DIVISION, NOAA OFFICE OF RESPONSE AND 
  RESTORATION; MIKE CHRISMAN, SECRETARY, CALIFORNIA RESOURCES 
                             AGENCY



    Admiral Bone. Good morning, Madam Speaker, Chairman 
Cummings, and distinguished Members of Congress.
    On November 7, 2007, the Hong Kong flag motor vessel COSCO 
BUSAN was outbound departing the Port of Oakland in very heavy 
fog, under the guidance and direction of a California State 
Licensed Pilot, Captain John Joseph Cota, and the control of 
the COSCO BUSAN's master, with 23 crew members.
    State Pilotage and participation in the Coast Guard San 
Francisco Vessel Traffic System, is mandatory for this transit. 
The Coast Guard has no record of communication from Captain 
Cota or the ship's master prior to departure reporting any 
unsafe, inoperable propulsion, steering, communications or 
navigation systems.
    Early in the transit, the State Pilot, Captain Cota, 
communicated to Coast Guard VTS San Francisco his intent to 
pass through the delta echo span of the Bay Bridge, which is 
one of the easiest spans to pass through because it's over 
2,000 feet wide.
    The VTS operators are neither pilots nor masters. Thus, 
they do not control, give commands, give courses to steer, or 
give speeds to travel. They are trained to question a pilot 
when it appears the communicated intentions are not what, in 
fact, they had stated before, and to do so early enough so that 
a pilot or a master, if they need to, can take appropriate 
action. They are also trained not to distract the pilot with 
interruptions during any critical maneuver.
    Approximately, two and a half minutes prior to the COSCO 
BUSAN's allision with the Bay Bridge, the VTS operator provided 
Captain Cota his observed course of the ship, and questioned if 
the pilot still intended to pass through the delta echo span of 
the bridge.
    The VTS operator did not give the pilot or the master 
rudder commands, courses to steer, nor did he tell them to turn 
the ship into the bridge.
    The allision of the motor vessel COSCO BUSAN, with the 
support structure of the bridge, actually hit the fendering 
system and knocked away about a 50-foot section of that 
fendering system, sending debris into the water, causing a 
gash, which we now know to be well over 200 feet long, the 
damaged area may be as high as 270 feet long. And, as you said, 
Mr. Chairman, 12 foot by 3 foot section. That means 12 foot 
wide, 3 feet deep into the vessel's hull.
    Also, it resulted in between 53,000 and 58,000 gallons of 
fuel, which is intermediate fuel oil No. 380, which is commonly 
known as bunker sea fuel.
    The forward ship's allision with the Bay Bridge marks the 
first recording of an ocean-going ship striking this bridge 
that we have on record.
    We'll continue to work closely with the NTSB to determine 
what went so tragically wrong, as this ship is equipped with 
the most advanced systems, a ship with a licensed master, a 
State Licensed Pilot, charged by the State of California to 
safely navigate this vessel, and with a licensed foreign crew. 
Their failure to navigate and make safe transit through any of 
the four spans, any of the four spans of the Bay Bridge, 
resulted in extreme damage to this pristine environment and 
wildlife.
    It resulted in unnecessary risk and health to the Bay Area 
citizens, leaving no options but to mount a unified response 
made up of Federal, state and local emergency responders, as 
well as oil pollution professionals. It compelled an 
unprecedented on the water response in now very hazardous 
conditions, due to floating debris, the potential of containers 
coming off of this vessel with hazardous material in them, that 
aren't going to float, by the way, up high, but maybe below, 
oil in the water, coupled with heavy fog, visibility only as 
far as 300 feet, and we had no air support until late that 
afternoon.
    The selfless action, I'd offer, and dedication, and 
preparedness and training of those individuals resulted in one 
of the most successful clean-ups that I've ever seen in my 30 
years, actual clean-up operations, and you'll have a chance to 
see why, and there's more than 1,400 responders that are 
actually responding right now.
    Madam Speaker, Mr. Chairman, no one enjoys going under the 
microscope, but I know there's many lessons to learn, many 
lessons that we've learned from this, many to be learned, and 
there's improvements that need to be made. I also have to tell 
you that we have to congratulate the volunteers, it's 
unprecedented to see the number of volunteers, especially--this 
is the first time in my career I ever had people that wanted to 
pick up hazardous material off the water, I mean, off the 
beach. HAZMAT cancerous material, these people in this 
community have an unbelievable spirit of volunteerism, and, 
actually, inspired our crews. They were out on scene.
    And, the men and women of the Coast Guard, we live in this 
community, the same as you, and we love this environment, and 
it kills us also when something like this happens. And so, I 
just tell you, we'll do whatever we can to keep from having it 
again, investigating why it happened, joining NTSB to prevent 
it, and we'll respond the same way as we did this time with 
regard to the actual on-site response.
    Madam Speaker, Chairman Cummings, and distinguished Members 
of Congress, I greatly respect the responsibilities of this 
full and Subcommittee and I'm prepared to answer any questions 
you may have.
    Mr. Cummings. Ms. Hersman.
    Ms. Hersman. Good morning, Chairman Cummings, Speaker 
Pelosi, and Members of Congress. Thank you for allowing me the 
opportunity to testify on behalf of the National Transportation 
Safety Board, regarding the containership accident here in San 
Francisco Bay.
    The Safety Board, as you know, is an independent agency 
charged with investigating all civil aviation accidents, as 
well as accidents in other modes of transportation, including 
marine.
    Our responsibility is to determine probable cause and issue 
safety recommendations to prevent such an accident from 
reoccurring.
    The Safety Board seldom rules out any potential causes of 
an accident during the initial stages of an investigation. 
Although we have gathered a tremendous amount of information in 
the last week, there is still considerable work remaining for 
our investigators, including conducting additional witness 
interviews, analysis of the voyage data recorder, and 
verification of the documentation we have received from the 
Coast Guard and other parties.
    After the allision, we monitored the events in San 
Francisco. On the morning of November 10th, it became clear 
that the incident was a catastrophe, and we launched a six-
person team from our Washington office. I accompanied the team 
as the Board's spokesperson. Our team was in San Francisco that 
day, and we began our formal investigation on that Sunday.
    Since then, the Board has sent three additional 
investigators to augment our team. Our investigative groups 
address specific areas, such as engineering, deck operations, 
human performance and emergency response. Other teams, such as 
the Voyage Data Recorder Team, will be formed as needed.
    Our investigation is focusing on the safety aspects of this 
accident and the initial response. The issues we have 
identified so far and are investigating include, probable cause 
of the ship's allision with the bridge, damages sustained by 
the ship and the bridge, notification of the accident, and 
action taken immediately after the accident to limit and 
contain the spill.
    This accident poses some challenges for our investigators. 
VDRs, or voyage data recorders, are relatively new. In fact, 
the COSCO BUSAN was not required to have a voyage data 
recorder. The technology is new, however, and there are a 
number of proprietary systems. Although we have been able to 
audition the voyage data recorder audio recordings, and see 
periodic radar screen shots, we have not been able to analyze 
the vessel's performance, such as engine speed, rudder 
movements, heading and speed, because we lack the necessary 
software.
    We just obtained that playback software from the German 
manufacturer last Friday. We'll be convening our group to 
download all of that information next week.
    Since the crew is entirely Chinese, all recorded 
conversations among the crew members are in Chinese. We will 
have a Chinese interpreter with our VDR group to make sure that 
all of the information is accurately transcribed.
    The communications between the pilot and the ship's 
personnel was in English. We are reluctant to characterize what 
was said until we know the substance of all of the bridge 
communications.
    Fortunately, accidents like this are rare. The Safety Board 
has not investigated the pollution aspects of a major marine 
accident since 1990. There are some new issues for us, and we 
will address those issues with the same objectivity and 
independence as we do all of our investigations.
    We are fortunate in that we have other experts from other 
modes of transportation within the NTSB to assist us with the 
investigation; experts from HAZMAT and from Recorders.
    The Board is presently in the initial phases of this 
investigation and there is still much work to be done. The 
investigation and final report could take as long as a year to 
complete. As new and significant developments occur, we will be 
sure to keep the Committee, Members of Congress and the 
community of San Francisco informed.
    The Safety Board investigators are still on scene. We will 
be having our wrap up meeting this evening with respect to our 
on scene investigation and will be taking all of the 
information that we have obtained here back to headquarters to 
perform our analysis.
    I do expect that our investigators will need to return to 
San Francisco to conduct some follow up work. Many agencies and 
groups have assisted the NTSB with this accident and responded 
to the accident that occurred. We would like to express our 
gratitude to the community and all of the groups who have 
assisted us.
    This concludes my testimony, and I stand ready to answer 
any questions.
    Mr. Cummings. Thank you very much, Ms. Hersman.
    Dr. Conner.
    Mr. Conner. Good morning, Madam Speaker, Chairman Cummings, 
distinguished Members. I'm glad to be here from my hometown of 
Mount Airy, Maryland to talk to you today about what NOAA has 
been doing in response to the COSCO BUSAN
    I have got a little frog in my throat. Thank you.
    My name is William Conner, I'm the Chief of the Emergency 
Response Division, Office of Response and Restoration, National 
Oceanic and Atmospheric Administration. Joining me today are 
Lisa Simmons from the National Marine Sanctuary Program and 
Jordon Stout, my scientific support coordinator for the San 
Francisco area. And, both of these individuals have been 
involved in the response to the spill here.
    NOAA is a science agency. We bring science to response, to 
improve the response decisions that are made in an emergency 
situation like this, and we focus on hazardous materials and 
oil.
    I want to talk about three things that NOAA does during a 
response like this, our three jobs. The most important ones 
are, to provide scientific support to the Coast Guard, to 
provide information that helps us protect national marine 
sanctuary resources that have been set aside because they are 
very special, and also to restore natural resources that are 
harmed by hazardous spills.
    The Scientific Support Coordinator for NOAA is a key player 
in this whole package, and they are supported from Seattle by 
what we call the NOAA Home Team, a special group of scientists 
that do pollution modeling, injury assessment, and that sort of 
thing. Our Scientific Support Coordinator was contacted on 
November 7 by the Coast Guard, and immediately swung into 
action to order a trajectory analysis, and a weather prediction 
to aid the response.
    So, shortly after noon on that first day, our first 
trajectory prediction was provided to the Incident Command Post 
that had been set up. This was based on our Physical 
Oceanographic Real Time System for observing ocean tides and 
water levels, and provided a picture of where the oil might go 
over the first few tidal cycles.
    In your handouts, I have this handout on page four you'll 
see what a trajectory analysis looks like. Keep in mind that 
all this blue and black here does not mean that the whole bay 
was covered with oil, but if you key in to the bottom there's a 
key that kind of gives you a hint as to what the water would 
look like from the air, where you'd have streaks and streamers 
of oil pictured down below.
    In addition, we have a trajectory prediction that focuses 
on the very first hours of the spill, also provided in your 
handout, and we focused in, ground truth this with overflights, 
and it reveals that two hours into the spill the oil was 
already covering about four square miles of the Bay. We'll talk 
about that more later if you have interest.
    We also produced overflights and pictures. On the far side 
there are the pictures from the initial overflight that was 
conducted at noon of day two, of the spill.
    During the first week, NOAA delivered 14 overflight maps, 
12 trajectory forecasts, 14 tidal forecasts, 17 weather 
updates, and five special assessments or establishment of 
protocols for the clean-up. We were very active.
    Secondly, I'd like to talk about the Sanctuaries Program. 
Their role in the spill, as I said, is to provide information 
to protect critical resources. We have three sanctuaries in 
this area, Monterey Bay, Gulf of the Farallones, Cordell Bank, 
all three provide critical habitat to very special and 
endangered coastal species. They have a connection with the 
volunteer group called Beach Watch that was mobilized on the 
second day of the spill, and they've been very effective 
providing three to four people every day to the Incident 
Command since that time, as well as a couple of dozen 
volunteers every day.
    Thirdly, I wanted to talk about restoration of natural 
resources. Under the Oil Pollution Act, the responsible parties 
responsible for restoring natural resources harmed by the 
spill. In order to do this, you have to do a restoration 
planning exercise, present a restoration plan to the public, 
and then the responsible party is responsible for paying to 
implement that plan.
    I'm glad to tell you that the restoration planning has been 
initiated already. Several agencies from the Federal and State 
Government are involved, including the State of California, the 
National Park Service, the Fish and Wildlife Service and NOAA, 
and we've been working very successfully with the Responsible 
Party to get this expedited.
    So, to wrap up, again, the theme here for NOAA is science, 
smarter decisions for response. We bring a package that starts 
with basic observations about the ocean, currents, tides, 
weather, place-based expertise in natural resources, combined 
with hazardous material expertise, to model, predict and 
observe while the incident is occurring.
    Thank you very much for this chance to be with you.
    Mr. Cummings. Thank you very much.
    Mr. Chrisman?
    Mr. Chrisman. Thank you. Madam Speaker, Mr. Chairman, 
Members of the Committee, thank you for this opportunity to be 
here today, and to testify as a representative of the State 
Governor's Office.
    As you all know, we have taken this incident very 
seriously, and I look forward to sharing some of our thoughts 
about this, about this tragedy.
    Back in 1990, the Office of Spill Prevention and Response, 
we call OSPR here in California, was created by State statute, 
within the Department of Fish and Game, which is part of the 
California Resources Agency, and as Agency Secretary I sit also 
as a member of the Governor's Cabinet.
    Joining me this morning behind me is John McCamman, the 
Acting Director of the Department of Fish and Game, and Greg 
Herner, Senior Advisor to the Director in the Department.
    OSPR operates both as a prevention and response 
organization, and is one of the few State agencies that, in the 
Nation, has both major pollution response authority and public 
trust authority for wildlife and habitat. In this role, OSPR 
has a number of responsibilities, and they are developing with 
others a detailed Area Contingency Plan to prepare for and 
respond to oil spills, conducting natural resource damage 
assessment of these pollution events, implementing the 
requirement that vessels provide certification of financial 
responsibility or insurance prior to entering State waters, 
responding, investigating and enforcing pollution violations 
and operating a spill dispatch function 24 hours a day, and 
finally, focusing on spill prevention, guiding responses, and 
operating the field across the State.
    Together, all of these add up to our Nation's most 
effective spill preparation and response agency.
    Part of these efforts, of course, are the plans, the 
contingency plans that you've heard referred to in previous 
testimony and comments. OSPR prepares and rates three types of 
contingency plans here in California for all spill incidents, 
and consider this requirement an essential function of its 
overall mission.
    Quickly, I won't go into them individually, but there are 
three of them. One is a Vessel Contingency Plan, developed by 
the shippers and reviewed by OSPR. Other is the Area 
Contingency Plan. You've heard that referred to in previous 
testimony prepared by OSPR, together with the Coast Guard. I 
have with me here on the table our Area Contingency Plan for 
this area. They, generally, contain important site information 
and response strategies for events like this. And, of course, 
the other contingency plan is the Oil Spill Response 
Organization Contingency Plans, that are developed and are part 
of every incident such as this.
    Collectively, each of these plans work together to ensure 
that appropriate measures can be carried out during a spill and 
reduce the impact to the environment and public health.
    You've heard a description of the incident itself. I won't 
go into that, the numbers of folks. Just know that OSPR was on 
the scene at the Coast Guard Station at Yerba Buena Island when 
the notification was made and immediately began to investigate 
the evidence of the spill.
    What has the Governor been doing? What have we in 
California been doing since the spill? Since the oil spill, the 
Governor has inspected the spill area on two separate 
occasions, has taken three very significant actions as a result 
of his authority.
    First, he declared a state of emergency in the City and 
County of San Francisco and six other counties directly 
affected by the spill. Secondly, he issued an Executive Order 
which closed recreational and commercial fisheries in the area 
impacted by the oil spill. And thirdly, he called for a 
comprehensive State investigation in the oil spill incident.
    The Governor's Executive Orders direct the Department of 
Fish and Game, in consultation with OSPR, to identify the area 
impacted by the spill in this area.
    Essentially, and when he closed the fisheries, this 
decision was not taken lightly, but was taken in an abundance 
of caution, recognizing the potential, and only potential, for 
public health at this time.
    It is likely that this action will have consequences to the 
fisheries and the fish businesses here in San Francisco and the 
Bay, and we have, and will continue to work with those 
businesses to be sure these impacts are minimized to the extent 
possible.
    As to the comprehensive State investigation, the Government 
has asked the Department of Fish and Game, OSPR, and the 
Governor's Office Emergency Service, to conduct a very 
aggressive coordinated investigation into the causes and 
responses of this oil spill.
    Although we must wait for the investigations to be 
completed, we do not believe it's too late to start looking 
forward in what else that we can do to take every step to 
assure that public safety, health and the environment are, 
indeed, safeguarded, and we also support the investigations, 
we've been participating in the investigations being conducted 
by our Federal partners.
    It's already been alluded to in some of the previous 
testimony here today, but before I close let me also join some 
of my colleagues here in expressing our thanks to the residents 
here in the Bay area and elsewhere, who have contacted us to 
volunteer. The response has been absolutely extraordinary.
    The Governor requested that the California volunteers help 
coordinate the volunteer response, and certainly we have not 
been able to utilize everyone who wants to volunteer. It's 
critical that we, indeed, operate in a manner that we can 
protect the public health and safety of volunteers, and that 
means not placing them in a hazardous situation, especially, 
without appropriate training.
    This is only a summary, we've got a big job ahead of us, 
and we look forward to working with all of you, Members of 
Congress, and our Federal partners, to get to the bottom of 
this, and deal with it in a proactive sort of way.
    Mr. Chairman, Madam Speaker, thank you very much for this 
opportunity.
    Mr. Cummings. Thank you very much.
    I want to thank all of you for being here this morning, 
and, Admiral, I want to start off with you. We're going to each 
have five minutes, and we are going to adhere to those five 
minutes very strictly, by the way.
    Admiral Bone, at 9:25 a.m., a small boat from the station 
in San Francisco followed an oil slick reported to be three 
feet wide to Anchor 7, where the vessel was located. A slick 
three feet wide from the point of the allision of the COSCO 
BUSAN with the Bay Bridge to Anchor 7 would indicate, even to 
the untrained eye, that a substantial amount of oil had likely 
been released from the ship, yet it was not until 4:49 p.m., 
that the Office of Oil Spill Prevention reported 58,000 gallons 
had been released.
    How do you explain for us, because I think this is so 
crucial, this long delay in understanding that there was a 
significant amount of oil in the water.
    Admiral Bone. Thank you, Mr. Chairman.
    First off, we don't respond to a reported amount. That's a 
reported amount of oil in the water, that is not what you 
respond to. And, I'd offer that actually if you look at the 
handouts that we actually provided, you'll see the response 
equipment against what the standards actually are, you'll see 
that the response that actually went on scene far exceeded, 
ten-fold exceeded. So, we respond to what the potential is.
    This ship, potentially, carried 1.8 million gallons of fuel 
oil. The response was not based on 145 or the ten barrels that 
we received later on.
    Mr. Cummings. How much did it carry?
    Admiral Bone. It carries 1.8 million gallons on the ship, 
sir.
    Mr. Cummings. Okay.
    Admiral Bone. So, what we had was what's reported to us, in 
this case by someone on the vessel. We had another report of 
ten barrels reported.
    We sent a team on, while one team goes on immediately to 
ascertain the bridge first, then they go down to the vessel 
with an investigator on board, within an hour we are on scene 
and on board the ship, and we are trying to find out how much 
has been spilled in the water.
    Meanwhile, the response is already underway, NRC, MSRC, are 
already mobilizing to move their equipment and mobilize it to 
put it on the water. Our boats, our small boats are operating 
on the water assessing the debris in the water, for those 
vessels that will be coming down, whether or not there's 
containers in the water, you lose containers overboard in heavy 
seas. We had no idea. We were in fog that's 300 feet that you 
could only see as you are out in this environment with an oil 
run. Our folks knew, and, actually, knew there was going to be 
more, they didn't know how much more, but everyone on scene, 
everybody, and I'm talking about all the emergency responders 
throughout this, got focused on the response, and they knew the 
more they saw, the more they had to deal with this.
    And, I actually believe that what took place was, you are 
in a very hazardous environment, you start to get focused on 
people safety and getting this oil. The idea that somebody 
would intentionally, who dedicates their lives to, basically, 
protecting the public, and responding and going in harm's way, 
would try to keep information from somebody that they know is 
of value to them, sir, it just wasn't there. It was a mistake 
in the communications, but the response was absolutely 
fabulous. I'm talking about the on-site response. There was 
miscommunication, we acknowledge that. There's 
miscommunication, I think, that could be shared across the 
board by all of us involved in this response.
    Mr. Cummings. Well, let me tell you what concerns me, 
Admiral, and I heard what the Mayor said about you, and he was 
very complimentary. But, what concerns me is that, I don't want 
this to happen again, and from all I've read, and all I've seen 
so far, it seems as if it could.
    Would you agree?
    Admiral Bone. Well, if somebody doesn't communicate, I 
guess what I'm passing on to you, sir, is, this, I believe, is 
unique in the sense that because of visibility, and people got 
tunnel vision, for whatever reason, I'm talking about all 
responders, there's people with lots of experience that went on 
this, Federal, State, local folks that actually saw what they 
saw.
    The idea of communication of that amount, people got 
focused, they thought when they got that team aboard they could 
find out very quickly, and normally you would, but the ship's 
side shell got smashed in, and so those sounding tubes that you 
normally would get a very quick reading from were not 
available. So then, they had figured on board, people are 
waiting, expecting to hear back from the ship, from the 
investigator on board what the amount would be.
    Mr. Cummings. Well, let me ask you this. You admitted that 
the Coast Guard was slow to realize the amount of oil spill 
released into the San Francisco Bay, but a November 14th press 
release stated that 12,745 gallons of oil has been collected. 
Is that right? And, that an additional estimated 4,060 gallons 
of oil had evaporated. How is it that you can measure so 
precisely the amounts of oil collected and evaporated, but it 
took more than 12 hours for you to estimate that 58,000 gallons 
of oil had been released? It's just, you know, it just doesn't 
make sense to me.
    Admiral Bone. Mr. Chairman, again----
    Mr. Cummings. And then, you understand why I'm asking these 
questions.
    Admiral Bone. Sure.
    Mr. Cummings. It goes to credibility, too, and people are 
relying on our thin blue line, and, fortunately, we deal 
together, work together on a daily basis, but I want to make 
sure that we are doing, all of our agencies are doing what they 
are supposed to do, particularly, the Coast Guard.
    Admiral Bone. Mr. Chairman, let me just tell you, when we 
saw two tanks corrupted, we knew it was at least 500,000 
gallons, I'm just saying anybody with experience knows that's 
at least 500,000 gallons. But, you don't want to go out and 
tell people that it's 500,000, that's what you could see.
    Now below, you had to stick the other tanks, make sure you 
don't have water in those other tanks.
    Mr. Cummings. Wait a minute, you didn't tell me, you said 
you don't want to tell people?
    Admiral Bone. No, I'm saying----
    Mr. Cummings. You heard what the Mayor said, he wants to 
know. He wants to know what's going on.
    Admiral Bone. What I'm trying to do, people were trying to 
get an assessment of how much. They knew they were responding 
to it. They were trying to find out how much was there, so that 
they could accurately inform.
    I'm not going to make an excuse for not telling the Mayor 
and the citizens that they didn't get an amount to say this 
have could put people in harm's way if they went down to the 
beaches. I'm not going to make that excuse to you, or any 
Member here.
    I do believe that should have been passed, but I'm only 
trying to explain to you what transpired in the minds of the 
people that collectively responded, the people that are serving 
this public every day, and will respond and go in harm's way 
tomorrow if called upon.
    Mr. Cummings. My last question to Ms. Hersman, before we 
move to Congressman Miller.
    Ms. Hersman, are you getting, the NTSB getting maximum 
cooperation from the Coast Guard, because your report is going 
to be very, very significant, to trying to prevent these kinds 
of things from happening again, and for helping us to figure 
out how this Congress can work to make sure that we use our 
power to do what we have to do.
    Ms. Hersman. Mr. Chairman, our investigators did have some 
initial trouble when we first arrived on scene, I think, with 
the hand off of the investigation. But, through conversations 
with Rear Admiral Bone, Admiral Allen and others, I think that 
that helped free up the flow of information.
    We now are, I think, getting very good cooperation from the 
Coast Guard, and we hope that continues through the course of 
our investigation.
    Mr. Cummings. Thank you very much.
    Congressman George Miller.
    Mr. Miller of California. Thank you very much, Mr. 
Chairman, and thank you so much for coming out and joining us 
and having this hearing.
    Admiral Bone, the Vessel Traffic System, is it state of the 
art?
    Admiral Bone. Yes, it is.
    Mr. Miller of California. So that, the question of whether 
or not the right equipment was in place or not in place is not 
open to question?
    Admiral Bone. No, and let me explain why.
    Mr. Miller of California. I don't want a long explanation, 
if it's state of the art I'll take your word for it.
    Admiral Bone. It is.
    Mr. Miller of California. Okay. But, you point out that 
they are not masters, they are not captains, and so they are 
simply there as an advisory role.
    Admiral Bone. Yes, sir.
    Mr. Miller of California. Should that be changed?
    Admiral Bone. That's one of the things that I think that 
this--that Congress and we should all take a look at, for, 
particularly, high-risk, high-threat environments.
    Mr. Miller of California. Air traffic controllers are not 
pilots, but they tell pilots what to do in emergency 
situations, as I understand it.
    Admiral Bone. Yes, sir, and they also have flight plans 
that are listed out.
    Mr. Miller of California. The question of the spill, Dr. 
Conner testified that within two hours it was probably covering 
about four square miles. That's the problem you have when you 
have the tides of San Francisco Bay and oil on those waters.
    Which party is given the authority to contact the Oil 
Response Team?
    Admiral Bone. The owners of the vessel have the 
responsibility, and the master normally executes that on behalf 
of the owners, to contact the Responsible Party, it's right in 
their Vessel Response Plan.
    Mr. Miller of California. What happened in this case? Did 
the master or the pilot?
    Admiral Bone. I think both, actually, made contact 
separately, but the reality for this is, some of the responders 
actually responded before the qualified individual even called 
them.
    Mr. Miller of California. So, how did they do that?
    Admiral Bone. They heard about the incident.
    Mr. Miller of California. How did they hear about the 
incident?
    Admiral Bone. On the radio is my guess, but the reality is 
some of these people were actually mobilized before they got 
contacted.
    Mr. Miller of California. Which people?
    Admiral Bone. The National--NRC, National Response 
Corporation, was actually mobilized before----
    Mr. Miller of California. In your testimony you state that 
the pilot at 9:18 called and told them and said that the leak 
had been secured, that there were ten barrels and the leak had 
been secured.
    Admiral Bone. The second pilot had actually passed that 
information.
    Mr. Miller of California. The second pilot.
    Admiral Bone. Not the first pilot. The second pilot came 
aboard, he received additional information that there was ten 
barrels and that it had been secured.
    Mr. Miller of California. There is, I don't want to say 
there's testimony, but there's information in the record to 
suggest that when the relief pilot came aboard that oil was 
still leaking from the ship in a rather considerable amount.
    Admiral Bone. I think you'd have to ask the pilots, but 
I've heard testimony----
    Mr. Miller of California. Have you received any evidence--
--
    Admiral Bone. --I can only----
    Mr. Miller of California. --that that's so?
    Admiral Bone. --we have heard that, although I haven't 
spoken directly with him, I have heard that. I can--I know that 
by 9:25, when our boat got on scene, all you had was a trickle, 
basically, or a dribble, you know, coming down the side about 
an inch wide.
    Mr. Miller of California. By the time the Coast Guard boat 
got on the scene.
    Admiral Bone. Right, and----
    Mr. Miller of California. But, the pilot boat was there 
prior to that.
    Admiral Bone. --and they said, and I think the pilots will 
be coming up, Pilots Association, and the people that actually 
saw the amount, but I don't think we are talking about a very 
large flow at that time.
    Mr. Miller of California. The Oil Response Corporation, 
that's located in the Inner Harbor of Richmond, is that 
correct?
    Admiral Bone. Actually, they are located at various 
locations around the whole Bay, so that they can respond within 
the time constraints throughout the whole Bay.
    Mr. Miller of California. So, they responded, they 
responded with what equipment and what time frame?
    Admiral Bone. Again, what I'd offer is, in here we've got a 
presentation that actually shows within the first six hours, 
but I know that there was two skimmers on scene within an hour 
of their initial notification. There was four skimmers on scene 
within two hours, and there was eight skimmers on scene within 
six hours, and this represents the six hours.
    What I note is, this is what the plan calls for, 2,500. The 
reasonable--that's for maximum----
    Mr. Miller of California. I got that.
    Admiral Bone. Yes, sir.
    Mr. Miller of California. Is the plan adequate?
    Admiral Bone. I think that we need to take a look at the 
plan----
    Mr. Miller of California. Two hours, according to NOAA, and 
the trajectory model, and I remember when we put this 
trajectory model, we were so proud of it when it was brought to 
the Bay years ago, is this plan now adequate, two skimmers in 
four square miles?
    Admiral Bone. Sir, I will tell you that there's a national 
standard that's put in place, if we are going to revisit the 
national standard, and say we want more cleaned up than that 
within a certain amount of time, but within an hour, I'm just 
trying to be reasonable, our rescue, for search and rescue, we 
have to get underway within 30 minutes.
    Mr. Miller of California. I understand, but in this 
particular situation, the Bay was, essentially, calm, was it 
not, I mean, it was foggy so there couldn't have been a lot of 
wind.
    Admiral Bone. Well, the currents is what the issue is.
    Mr. Miller of California. No, I understand that, I 
understand that, but so we weren't cleaning this up in 
treacherous water, so to speak.
    Admiral Bone. Well, other than----
    Mr. Miller of California. The question is, again, when you 
look at the trajectory model, it redefines San Francisco Bay, 
because it immediately, you know, it went out to the Golden 
Gate and went up and down the coast. the question is whether or 
not the response that is in place is adequate or not.
    Admiral Bone. Again, I think we need to look at, we need to 
look at what the plan calls for, we need to look at what the 
expectations are, and decide on a Federal standard. I'm not 
going to make a judgment on that, sir.
    I can tell you that 27 percent, almost 27 percent of this 
oil was picked up, and on average we get between 5 and 20, and 
that, not in conditions in fog, not in an open estuary like 
this where it flows through, you don't normally get 20 percent.
    So, if you are going to go to this high end, I'm just going 
to say on every spill that's something for, I think----
    Mr. Miller of California. So, 20 percent is the high end.
    Admiral Bone. --if you ask the science folks, they'll tell 
you what it is.
    Mr. Miller of California. No, I understand, I mean----
    Admiral Bone. I've been on spills, Congressman, where 
38,000 gallons have been released from a vessel, and zero has 
been recovered.
    Mr. Miller of California. Yes, well, we----
    Admiral Bone. I'm just trying to give you----
    Mr. Miller of California. I understand.
    Admiral Bone. --some perspective.
    Mr. Miller of California. I understand. The perspective is 
in the Bay and this accident at this moment.
    Admiral Bone. I know, no one----
    Mr. Miller of California. That's the perspective.
    Admiral Bone. Yes, sir.
    Mr. Miller of California. In the long run, we'll all be 
dead, but in the short term it's about the pollution of the 
Bay.
    Let me just, if I might, and I don't know who at the table 
is responsible for this, but there's been discussions of 
personnel in the clean-up of this oil spill, with the 
corporation and response teams, the suggestion that there's 
been retaliation if they speak out on this, and I just hope 
that somebody will convey to the Response Corporation that they 
are interfering with the Federal investigation, and that's a 
violation of Federal law, because that testimony, whatever it 
is, I don't want to prejudge it, needs to be preserved and 
needs to be preserved in the right form. So, I hope that 
whether it's you, or whether it's the Justice Department, or 
the Safety Board, the people understand that, that this is a 
full-blown Federal investigation.
    Thank you.
    Mr. Cummings. Thank you very much, Mr. Miller.
    Let me just emphasize what Congressman Miller just said, 
and we've said this in this Subcommittee before, Admiral, that 
we will not stand for any type of retaliation of anybody, for 
coming and cooperating with this Congress or Federal agencies. 
I want to be real, real clear on that.
    You've heard me say that many times.
    Admiral Bone. And, Mr. Chairman, I can tell you that the 
Coast Guard, to my knowledge, has not told anyone to not say 
anything.
    Mr. Cummings. Or anybody else.
    Admiral Bone. I mean, just because you directed it to me.
    Mr. Cummings. All right, I just want to make that very 
clear.
    We'll now move on to Ms. Tauscher, and again, I want to 
publicly thank you for all your help in making all of this 
happen. Thank you.
    Ms. Tauscher.
    Ms. Tauscher. Thank you very much, Mr. Chairman, and it all 
goes to the Speaker's leadership to make sure that we could all 
be here today.
    Admiral Bone, I want to follow up on a question that 
Chairman Miller asked about the VTS system. I understand that 
other VTS centers in the country, specifically, Houston and New 
Orleans, have an upgraded system, a new software and new 
monitors that we don't have here in the Bay area. Is that 
because of resources, or because we are in a chain of getting 
new equipment that we haven't got yet? What exactly is that? 
And, would it be characterized that we don't have a state-of-
the-art system right now?
    Admiral Bone. Thank you, Congresswoman.
    First, what was being done was, there was an older VTS, the 
VTS system that was in place, they created this new system that 
Lockheed Martin had put in place, that was an improved system, 
technical system.
    Northrup-Grumman produced the first VPS system. When they 
saw that----
    Ms. Tauscher. Is that the 1995 software?
    Admiral Bone. --these are the earlier ones. When Northrup-
Grumman found out that Lockheed Martin was going to get all the 
money for the new systems, they said, they contacted our C2 
center and said, hey, we can provide that same capacity at a 
cheaper price. So, we are going to give you the same 
technology, you are just going to get a different view, but the 
same technology is being provided. You won't have to retrain 
your people on this new system, because they are already 
trained on this system.
    And so, you have equivalent technology on both systems, and 
equivalent capacity and abilities on both systems. One just 
happens to be provided by one company, and another by another. 
That's the case.
    Ms. Tauscher. All right. I'd like to go to this issue of 
the bunker fuel, because, apparently, this is pretty nasty 
stuff, and what's clear to me is that we need a lot more 
information about ships coming into our Bay that are going to 
be burning this kind of fuel, and, especially, if they don't 
have double hulls.
    As many people know, the International Convention for the 
Prevention of Pollution from Ships requires double hulls on 
bunker tanks fuel, starting in August of 2010. Clearly, that 
doesn't help us right now.
    My questions are, should we amend that requirement to say 
that older ships should be retrofitted? And, we are all aware 
of the financial requirements to do that, and how prohibitive 
that may be, but it seems to me that we need to know a lot more 
about the kind of fuel that these ships coming into our Bay are 
burning, that it's one thing to be coming in with a lighter 
load, but when you are going out, and you are fully--well, your 
tanks are full, it seems to me that the requirements of us 
knowing that, number one, you are burning bunker fuel, number 
two, you don't have a double hulled fuel tank, number three, 
we've got to know where you are, because you are insidious if 
you have a spill, as opposed to just being bad and damaging.
    Can you kind of illuminate us as to what you think the most 
safe way for us to get that information, and should we have it 
before these ships are in the harbor?
    Admiral Bone. First, I just want to make sure you are aware 
that it isn't that they are all actually required to have 
double hulls under the new standard, there's actually an 
alternative flow outflow that could be done by a ship owner. 
So, that's not lock solid that everybody would have to go to 
double hulls.
    Ms. Tauscher. Okay.
    Admiral Bone. I'm not a person that could say this is 
exactly what we should have with regard to double hulls. I 
actually think our emphasis and effort has to be placed on 
preventing the incident, not allowing things to hit things. 
Steel hitting concrete will lose every time, and that's what 
took place here. And so, we can't let -- we can't afford--rocks 
will win over steel every time, too, and you can't control the 
sea state once a ship goes aground, it will work on it until it 
breaks it up.
    So, we have to find a way to prevent these accidents from 
happening. We have to establish whatever control mechanisms and 
management, and we have to make sure we have the very best 
people operating them.
    If we are going to bring in, we are bringing in ships now 
that can carry fuel as large as tankers back in the '70s, when 
most of these plans were first thought up. So, times have 
changed, we do need to look at this. We have to make 
adjustments in our safety system, and I look forward to working 
with Congress to do that.
    Ms. Tauscher. Well, Admiral, let me clarify this. Are you 
saying that because a ship is burning bunker fuel it shouldn't 
be treated differently? Isn't bunker fuel the worst case 
scenario?
    Admiral Bone. No, actually, there's other fuels that may 
have, or other cargos, and I'm not sure about bunker fuel, but 
there's other types of cargos of fuels that may actually be 
worse.
    I mean, some people suggest gasoline or diesel, reality 
there is if you have a spill you have a huge flammable 
environment as well, and you have a very big safety standard if 
they hit something.
    Ms. Tauscher. Would you have acted differently if you had 
known that the COSCO BUSAN was burning bunker fuel?
    Admiral Bone. No.
    Ms. Tauscher. Is that information valuable to you when you 
are attempting to deal with this kind of accident?x
    Admiral Bone. Yes, it is, because if the specific gravity 
is greater than one it's likely to sink, or be suspended at 
least. Fortunately, when we tested this it was .93 to .95, both 
from warmer temperatures to colder temperatures, so we had a 
higher -- we had higher assurance that it was going to be on 
the surface more than sinking when we were doing the initial 
response, and that's what really drove us to get out there 
early before it gets into the water column.
    Ms. Tauscher. For all of the ships that are in our Bay, and 
going over to Oakland, do you have information all the time as 
to what kind of fuel that they are carrying?
    Admiral Bone. I wouldn't say the specific fuel, but I would 
expect it's bunker, some type of bunker fuel that they 
operating on. It's usually the degree of sulfur that most 
people are talking about, and that has more to do with air 
emissions than the real fuel-specific gravity.
    Ms. Tauscher. Thank you, Mr. Chairman.
    Mr. Cummings. Thank you very much.
    Let me just ask you this quick question. Was there a senior 
investigating officer assigned to this?
    Admiral Bone. Yes, there was.
    Mr. Cummings. And, who was that?
    Admiral Bone. It's the senior investigating officer on -- 
over all this is Captain Ross Wheatley, who has been assisting 
with the NTSB and been sitting in their investigation.
    Mr. Cummings. I'm just curious about that, I'll come back 
to that.
    Mr. Lantos, Congressman Lantos.
    Mr. Lantos. Thank you, Mr. Chairman.
    Ms. Hersman, representing the National Transportation 
Safety Board, you very properly say that it will take you a 
year to draw some conclusions. But, to the naked eye it seems 
that what we are witnessing is a cascading cavalcade of 
preventable mistakes.
    There is zero surprise in this whole tragedy. There is a 
ship, there is a bridge, there is some fog. And, I find it 
incomprehensible that in the post 9/11 climate we should be 
sitting here as if this would be a new phenomenon. There is not 
one iota of surprise or new development in all that I have 
listened to and all that I have read about. Every single one of 
the items would have been projected, forecast and prevented.
    The thing which is so disturbing to those of us who live 
here, and who feel a responsibility for this area, that all the 
agencies are really side stepping their responsibility. There 
are events which are surprise events. Some of these events are 
acts of nature, like the nightmare which is unfolding in 
Bangladesh as we are sitting here today. Some of these are 
terrorist acts. This was a routine movement of a ship in a 
well-controlled area. And, here we are facing an unspeakable 
tragedy and disaster.
    I would like to ask you, Ms. Hersman, and then the Admiral 
if he's willing, what is your explanation to the fact that a 
totally preventable, several mistakes, has given us this 
cavalcade of calamities.
    Ms. Hersman. Unfortunately, the Safety Board is in the 
business of investigating accidents. There are always a chain 
of events that could have been prevented, and that's why the 
Congress created us, so that we can make recommendations so 
they don't happen again.
    We are looking at the man, the machine and the environment, 
as we do in every situation, to make recommendations so that 
either equipment can be improved, training, or checklists, or 
response can be improved, or if there are any anomalies with 
the equipment or the vessel, that those would be addressed.
    You are right, it could be, it could be prevented.
    Mr. Lantos. It should have been prevented. Let me just take 
one small corner of this, linguistic competence. Are you 
satisfied, is the National Transportation Safety Board 
satisfied, that all the relevant crew members are qualified to 
function in English when they enter San Francisco Bay?
    Ms. Hersman. That will be part of our investigation. We 
have--
    Mr. Lantos. But, it's not a new phenomenon.
    Ms. Hersman. --not been able, we have not yet been able to 
interview the crew members.
    Mr. Lantos. But, do you think that the existing regulations 
and requirements are adequate with respect to linguistic 
competence?
    Ms. Hersman. There are requirements that exist, that there 
be a language, a common language, aboard the vessel for safety 
purposes. We will be looking to see if that existed in this 
situation.
    Mr. Lantos. Do you think that the existing linguistic 
requirement is adequate, because there are plenty of reports 
concerning this episode that there was confusion in 
communications. In your own testimony, you said all of the 
conversation was in Chinese, and this will have to be 
translated.
    Ms. Hersman. The Safety Board has looked at this issue in 
the past, and I know Members have raised the issue in aviation. 
Marine is no different, there are going to be interactions from 
crews from all around the world, whether they are airplane 
crews or marine crews. It's not unusual to have people come in 
to a port or an airport that don't speak that language.
    But, what is important is that people who are communicating 
about safety essential functions can communicate with each 
other and be understood. In the past, the Board has made 
recommendations with respect to communications and language 
issues, common phraseology in the aviation arena. If there are 
issues here, we will look at those as well.
    Admiral Bone. I really would never have expected this event 
to occur, because of the spans, and how wide they are, and the 
fact that this is one of the few ports that I've been to in the 
Bay area where you have deep water across the entire Bay.
    I can't begin to tell you how or why this should have ever 
occurred. There's absolutely no basis in my mind's eye for this 
to have ever occurred. Something on board that ship had to go 
terribly wrong. I'm talking amongst people that have been 
deemed competent to carry out their mission, both by the State 
and by an international body.
    I cannot stress that enough, I don't----
    Mr. Lantos. So, you agree with me that it was totally 
preventable.
    Admiral Bone. --it was totally preventable, totally.
    Mr. Lantos. Yet, it happened.
    Admiral Bone. Yes.
    Mr. Lantos. Is there any of the explanation in the 
regulations concerning fog? I mean, we have fog here all the 
time.
    Admiral Bone. Yes, there are regulations, in fact, in the 
Inland Rules regarding steering and speed, with regard to fog, 
and there's caution that's, basically, placed within it, to 
both masters and pilots, as they navigate vessels.
    Yes, visibility is included.
    Mr. Lantos. And, the regulations are adequate as far as you 
are concerned?
    Admiral Bone. If they had been followed, and they had 
carried out their responsibilities promptly, we wouldn't be 
where we are today, sitting right here.
    Mr. Lantos. Thank you, Mr. Chairman.
    Mr. Cummings. Admiral Bone, let me thank you very much. 
Admiral Bone, I must follow up on something that--an answer 
that you just gave Mr. Lantos.
    You said something, and I don't want to take the words out 
of your mouth, but something awfully wrong went on on that 
boat. Is that what you said?
    Admiral Bone. Yes, well, I said something tragic must have 
taken place on board the ship, on board for people that have 
experience, that are there, for this event to have occurred. 
That's my opinion.
    Mr. Cummings. Well, you know, when I heard you say that, I 
couldn't help but think about the question of how do you 
explain the failure of the Coast Guard personnel to ensure that 
the drug and alcohol tests were completed in the time period 
required by your regulations, and why wasn't the ship's 
captain, who was directly involved in this incident, tested 
within the required period, instead of days after the incident?
    You caused me to think about that, because I'm thinking 
about what can go wrong.
    Admiral Bone. Yes, sir.
    Mr. Cummings. And, you just threw that one right at me.
    Admiral Bone. Well, Mr. Chairman, I just want to, I'm not 
trying to throw anything back, but I want to make sure it's 
understood that the master, and the crew, and the pilot, were 
all tested for alcohol within the time constraints.
    The master and the pilot were also tested within the time 
constraints for drugs, and all proved negative, for both 
alcohol, 0.0, also for drugs.
    The remaining crew that's in the navigation portion of the 
crew are the people, not the master, not the pilot, both of 
those were tested within the time constraints, the additional 
people in the crew, which by the way is not the responsibility 
of the Coast Guard to ensure its tested, it's the 
responsibility of the employer, which in this case is the 
owner, to ensure they are tested by law.
    The Coast Guard is not the one who goes out and administers 
this test, Mr. Chairman. We discovered that they didn't test 
the five additional crew. We caught it, we caught them, we made 
them get them tested. We received those results, and those, 
too, are negative.
    Mr. Cummings. Okay, who is the owner?
    Admiral Bone. Regal Stone.
    Mr. Cummings. All right. I'm just going to briefly go to 
Mr. Miller for one question. Very well.
    Mr. Miller of California. No, I'm just, in one of the 
documents it suggested at one point that this ship was moving 
parallel to the bridge. That would be something terribly wrong, 
if it's going to----
    Admiral Bone. Actually, Congressman, because of the way you 
come out from that particular area----
    Mr. Miller of California. Right.
    Admiral Bone. --you will run parallel, and sometimes you 
will dip south in order to set yourself up----
    Mr. Miller of California. Right, when you are coming out of 
the Inner Harbor.
    Admiral Bone. --for that bridge, so you maybe come out, and 
then normally you may set yourself south, and then make your 
approach, or you could come parallel and turn in.
    Again, this span is twice the length of that----
    Mr. Miller of California. No, I understand, so you are 
saying it was parallel at the time it came out of the Inner 
Harbor of Oakland, and was moving toward the opening.
    Admiral Bone. Well, I'm not going to put anymore words, 
NTSB has the investigation. What I wanted to make clear, 
though, Congressman, is this vessel was not in imminent danger 
when that VTS operator called in. This vessel was not running 
into the bridge abutment. That's what everybody thinks from the 
information that's been passed out, it's false, and it's almost 
an indictment on the individual, who actually tried, you know, 
who made a notification.
    And, let me explain why they called them and asked them 
that, if I could. The reason they are calling and asking their 
intentions is because they are going--they are telling them 
where they are going to pass. Well, there's a lot of other 
vessels in the system, and one of the main reasons for that 
Vessel Traffic System is to let them know, hey, this vessel is 
going to be coming through this span, so if you are coming 
don't go through that same span, choose the other span, or 
choose one of these others, so that they can anticipate, 
because these ships are large masses that will move, and 
stopping them, it isn't like on a car where you can just stop 
them, it takes sometimes almost a mile to stop a ship, 
depending on, in this case it was 1.3 miles from where it hit, 
and it something to the anchorage area, Anchorage 7.
    Mr. Cummings. Ms. Lofgren.
    Ms. Lofgren. The concern I have about this is very strong. 
You know, I was born and raised in the San Francisco Bay area, 
and to explain how we feel about the Bay, those of us who have 
lived here all our lives, I really can't.
    I remember as a young staffer for my predecessor, 
Congressman Don Edwards, working for almost ten years to help 
establish what is now called the Don Edwards Wildlife Refuge, 
and then again in local government, serving on the Bay 
Conservation and Development Commission with our colleague, 
Anna Eshoo, who was not able to be here today, drilling the 
plans that we would have if there were ever an incident such as 
this over and over again, and now serving on the House Homeland 
Security Committee, the Border and Port Security Subcommittee.
    And, I'll just say, my constituents are not impressed with 
what happened here, number one, they don't understand how an 
accident like this could be allowed to happen. I mean, as Mr. 
Lantos has said, fog is routine, it's not an out of the 
ordinary. So, it's prevention, but it's also response. And, we 
are not impressed by the response.
    I mean, I've heard that from my constituents from beginning 
to end, and so I don't want to just complain, I want to see how 
can we do this better. How can we make sure if something like 
this happens again, we do a better job?
    And, I was struck, Dr. Conner, by your testimony on what 
you were told about how many gallons had been released on 
November 7th, 420 gallons, and you did your mapping, and from 
all I can tell you performed appropriately under the plans as 
we had hoped, except that the amount that you were given was 
not correct.
    Would your response have been different had the actual 
magnitude been told to NOAA at 10:00 a.m.?
    Mr. Conner. Thank you for asking that question, it's a 
really interesting one, and, basically, the answer is no, it 
wouldn't have changed.
    The way the model works is that, basically, you throw a 
bunch of oil parcels into the Bay, and then move them around 
according to the currents and such, and the number of parcels 
doesn't change with the volume of the water, I'm sorry, the 
volume of the oil in the model, it's just that the amount of 
oil associated with each parcel changes.
    So, the answer is no, in regard to the modeling. There 
wouldn't have been any significant difference.
    Secondly, with regard to our response, we, basically, are 
very experienced. We get about 100 to 120 calls a year on 
spills like this. And, it is very normal for the early reports 
of the estimated volume to jump around until they finally 
settle out one or two days later.
    So, basically, when we get a notification of a release into 
a critical and dynamic habitat like San Francisco Bay, we are 
full-bore responding, until we know for sure that it was a 
small release.
    Our SSC was at a Regional Response Team meeting at the time 
of the spill in Las Vegas, and he was notified by cell phone, 
and immediately did his notifications and came back to San 
Francisco and reported to the Incident Command by dinnertime 
that evening.
    And, we also stood up our Home Team in Seattle, and started 
our modeling, our weather forecasting, and our toxicity 
assessments, and so we were full-bore responding.
    Ms. Lofgren. Let me ask you this. One of the other comments 
I've heard from people in the Bay area, and maybe it's because 
the Committee I serve on is, you know, what if this had been 
some other kind of incident, not an oil spill, bad as that is, 
but a homeland security type of event. People didn't feel that 
the response was that on point.
    Are you satisfied with the interagency response to this 
event, Dr. Conner?
    Mr. Conner. I think the safe answer to that is, we'll wait 
and see what the Coast Guard's investigation shows. We are 
going to participate in that investigation by providing a 
Scientific Support Coordinator from another region, who was not 
involved in this response. And, Admiral Allen has promised to 
have some kind of an initial reading within 90 days.
    But, I have not seen anything, or seen anything reported, 
that would cause me to have concerns about the interagency 
coordination of the response.
    Ms. Lofgren. Let me just ask a final question, as my time 
is almost through.
    A year ago, there was a large exercise, a major field 
exercise, according to your testimony, of the NOAA Safe Seas 
2006, and part of that was to train volunteers to respond.
    One of the complaints I have received, and I'm sure my 
colleagues have, is that people who were trained, who wanted to 
come, and this is the Bay area, people volunteer, people care 
about their environment, they came to help, I understand if 
people weren't trained that's one thing, but people that were 
trained were not utilized.
    And, in your judgment, did that exercise yield the kind of 
effort that you wanted? I mean, the people we trained couldn't 
be used.
    Mr. Conner. Yes, I think the exercise was effective in 
raising the capability of volunteers to contribute to a 
response. It's really difficult, the first day of the response, 
setting up the Unified Command, developing the first Incident 
Action Plan for the subsequent day. I'm going to go out on a 
limb here and assume that getting volunteers involved is 
something that the Command tried to do in day two and day 
three. So, the volunteers may have been frustrated that they 
couldn't be----
    Ms. Lofgren. Well, they were, I'll tell you that.
    Mr. Conner. --involved.
    Yes, ma'am, they couldn't become involved more quickly, 
but----
    Ms. Lofgren. I'd just like to ask you to think about this, 
if we've trained people, I know the City had trained people as 
well, shouldn't we, in advance, do some identification system, 
have that as part of our play. So, if there are people who are 
trained and they want to be there hour two, we are able to 
utilize them if we know and can certify that we've already 
trained them, instead of this situation, which was just 
infuriating to people.
    Mr. Conner. Well, one of the things that I mentioned in my 
testimony was that the Beach Watch volunteers that are 
associated with the Marine Sanctuaries Program, and were part 
of the Safe Seas exercise, were actually used starting the 
morning of the second day. And, I think the Admiral wants to 
say something about some of the other volunteers, if you would 
allow that.
    Admiral Bone. Actually, all I was going to do is, that's 
what I was going to echo, that that training in Safe Seas 2006 
was dominantly to help identify spotters and people that could 
identify wildlife, so that people could get there more quickly, 
and actually assist better with the clean-up, and move the 
skimmers who are response people, and that was, in fact, 
exercised.
    We didn't, I don't think anybody anticipated, again, that 
people were going to want, that civilians were going to come in 
droves to actually handle hazardous material and clean it off 
the beaches. It just hasn't happened.
    But again, we thank the community for doing it. It required 
us to adjust on the fly and get some training and put that 
together.
    You are right, it should be in the plan, we are committed 
to putting it in the plan, and it's something that the Mayor 
and I have already talked about.
    Ms. Lofgren. Mr. Chairman, my time has expired, but I'll 
just say, you could have asked any one of us and we would have 
told you that our constituents would want to help.
    Thank you.
    Mr. Cummings. Before we get to--thank you very much, Ms. 
Lofgren--before we get to Mr. McNerney, let me ask you this. 
You said something that was so critical just a moment ago. You 
said something had to happen on the ship, is that what you 
said?
    Admiral Bone. I believe, yes, sir.
    Mr. Cummings. And so, while you are cooperating with NTSB, 
and you've got Ms. Hersman sitting right next to you, what 
would you tell them they need to look at first? You must have 
some idea, you must have, if you've zeroed it down to that 
ship. I mean, what do you think happened? What do you think 
went wrong?
    Admiral Bone. Congressman, I think, I can't tell you all 
the things that went wrong.
    Mr. Cummings. But, I want you to tell----
    Admiral Bone. Listen, I think, to be honest and fair to 
individuals, you know, the individuals on board the ship, to 
target one thing or another to be a causal factor, the causal 
or primary or secondary, like Ms. Hersman said, there's usually 
a chain of events, and there's a series of things that cause it 
to happen. And, having been a marine investigator, what may 
appear, just like it appeared to most people when they heard 
that the operator, you know, asked him if he still intended to 
go through, everybody jumped and thought, that vessel was 
targeting that pier and he should have warned him away, if I 
provide some other little bit of information everybody will 
jump on it and say, ah-ha, that's the causal factor.
    I think that, as NTSB develops the full set of situation 
circumstances on this we'll know it. We would have done, we 
would do the same thing, as part of our investigation we had 
completed preliminary investigation, when we passed, we weren't 
complete in our investigation, and our investigation is ongoing 
parallel with NTSB's, while we are supporting them.
    And, we'll come to the conclusions that we come to at the 
end of the day.
    I'm not going to suppose, in fairness to the individuals, 
I'm not going to do that, sir.
    Mr. Cummings. I just asked you to follow up on something 
that you said, okay?
    Admiral Bone. Yes, sir.
    Mr. Cummings. I understand.
    Ms. Hersman, just one quick comment. The NTSB 
investigations are so thorough, and so, I mean, because they 
are supposed to be, and you do a great job, but it takes a 
while, doesn't it?
    Ms. Hersman. Yes, sir, unfortunately, it takes a lot longer 
than everybody would like it to.
    Mr. Cummings. And, the average investigation takes about 
how long, I mean, if you just add a guess, year, two years?
    Ms. Hersman. I would say a year, yes, sir.
    Mr. Cummings. My concern is, I think going to some of the 
things that the Mayor said, we want to make sure that these 
things don't happen again, I mean, like next month. And so, I 
just, I'm hoping that we can, as a Congress, can try to find 
ways, and we know you--we want you to do your investigation, we 
want it to be thorough, but we've got to make sure that we do 
some things in the meantime, I'm just saying this to our panel, 
that we need to deal with.
    And, Admiral Bone, I want you to stay on for the next 
panel, stay around for the next panel. Will you do that?
    Admiral Bone. Yes.
    Mr. Cummings. All right.
    Mr. McNerney.
    Mr. McNerney. Thank you, Mr. Chairman.
    I certainly want to commend you for your leadership on this 
issue, and the Speaker for helping to organize this this 
morning.
    Mr.Cummings, or Secretary Cummings, we met a few weeks ago 
proactively to discuss delta water usage in the valley. And, 
this morning we are meeting reactively to discuss action that 
happened a few weeks later in related waterways.
    Your agency is responsible for providing resources to deal 
with these sorts of issues. Do you believe that the State 
Resources Agency has sufficient resources for training and 
response in this sort of situation?
    Mr. Chrisman. Thank you for asking that question, a good 
question, and one of the early questions that, of course, we 
asked at the State level, do we really?
    And, quite frankly, at this stage of the game we think we 
do, but, quite frankly, what we are going to do through the 
investigation, through the joint investigation that we are 
going to do on this incident, we are going to ask those very, 
very tough questions. We are going to be very hard on 
ourselves, as a part of this overall investigation, we will 
have an answer for that.
    But, insofar as available resources to respond pursuant to 
State statute, in concert with our Coast Guard partners and 
others, yes, we did.
    Mr. McNerney. Well, in that case, let's go ahead and make 
sure that that's a public process.
    Mr. Chrisman. Absolutely, sir.
    Mr. McNerney. And, not behind some kind of closed doors.
    What specific recommendations do you have this morning 
regarding improvements in the system that we have right now, 
that failed us on November 7th?
    Mr. Chrisman. One, we just heard a conversation about that.
    Mr. McNerney. Especially in light of the Mayor's 
recommendations about the hulls and coordination.
    Mr. Chrisman. Absolutely. From where we sit, and we just 
heard a conversation about the volunteers, the unbelievable 
number of volunteers that we had here in the Bay area. It, 
essentially, was, obviously, gratifying, but we weren't 
prepared, quite frankly, for the large numbers that came. We 
need to take a close look at that. We need to assess that. We 
need to make sure that, you know, that we can utilize all them.
    All of the trained volunteers that we had, that had trained 
prior to this event, actually did respond, and were used.
    Mr. McNerney. So, you see that as your biggest weakness, 
managing volunteers?
    Mr. Chrisman. As I sit from where I sit in this stage of 
the game, we need to take a close look at that, we need to do 
a--we do a very good job of that here in California, in terms 
of involving stakeholders in our natural resources, management 
programs, and all that. It's a part of the way we operate. We 
just need to do a better job.
    Mr. McNerney. Well, speaking from the Fish and Wildlife 
perspective, how serious is the damage out there, and how long 
is it going to take for us to recover?
    Mr. Chrisman. We are just assessing that right now. As I 
indicated in my comments, the Governor, in an abundance of 
caution, closed the dungeness crab season, and, in fact, closed 
all fisheries in the affected areas laid out in the Executive 
Order.
    We are in the process now of testing herring, surf perch, 
dungeness crab, rock crab and mussels. They are being tested 
now, and what the Governor has asked us to do is to make sure 
to have those tests, those testings done, the results of that 
testing done, and then to work between our Office of Emergency 
Health Hazard Assessment, and our Department of Public Health, 
and the Department of Fish and Game, have those assessments 
done by December 1st, so we can, again, hopefully, there is no 
public health hazard, there has not been one, not been one at 
all identified up to this point in time, and we hope that that 
continues to be the case, and we can get these seasons open 
quickly.
    Mr. McNerney. Other than volunteers that are getting 
themselves out there without preparation.
    Mr. Chrisman. That's right.
    Mr. McNerney. A member of your office was on board when the 
146 gallon estimate was given.
    Mr. Chrisman. Yes.
    Mr. McNerney. Does he or she agree with that, and if not, 
why didn't they make that information available?
    Mr. Chrisman. You know, Congressman, I don't know the 
answer to that. That, again, we are going to have to get to the 
bottom of that, in terms of our assessment.
    The person was on board, again, as you indicated and you 
heard in the testimony, quite a period of time between the time 
that that initial 140 gallons, I think it was 140 barrels, 140 
whatever it was, was released, and then the final assessment of 
the total amount given the assessment that had to get done.
    So, I'm not sure that that person on board could at that 
point in time have been able to assess the total gallons that 
actually were leaked. But, those are those things----
    Mr. McNerney. I mean, if you look overboard and you----
    Mr. Chrisman. --that we are really going to take a look at.
    Mr. McNerney. --see a trail miles long, it's, obviously, 
more than 140 gallons.
    Mr. Chrisman. Well, again, as I said in my testimony, we 
had our people at the Incident Command, at the Coast Guard 
Center, and within 30 minutes our people were actually 
responding to the event, and were beginning to assess what was 
going on, and were beginning to deploy----
    Mr. McNerney. Well, this gets back to the resource 
question.
    Mr. Chrisman. Exactly.
    Mr. McNerney. The people need training that are going to be 
taking those positions.
    Mr. Chrisman. That's right.
    Mr. McNerney. With that, I'll yield back.
    Mr. Cummings. Thank you very much, Mr. McNerney.
    Ms. Lee?
    All right, Mr. Miller.
    Mr. Miller of California. Admiral Bone, you suggested that 
20 percent, this is really good, and I don't mean you passed 
judgment or value on that, but as oil spills go.
    Admiral Bone. As oil spills go, 20 percent is considered 
good. Between 5 and 20 is what you see in oil spills, and I can 
tell you that----
    Mr. Miller of California. I think if most Members of 
Congress knew that we would probably recalibrate what we think 
the margin of prevention should be, because if you told your 
constituents 80 percent of the oil is going to just be out 
there in the environment.
    Admiral Bone. Congressman, just again, just as you heard 
Bill mention, within an hour it spanned four square miles, and 
then it moves with the tide, and it's like being in a washing 
machine here, it goes in, and it comes out.
    Even if you had everything right there, I'm just--oil 
moves.
    Mr. Miller of California. But, that goes to the question, 
we have a plan of disbursal of assets to clean up the oil that 
may not comport with the threat that exists today.
    Admiral Bone. Exactly.
    Mr. Miller of California. Because those decisions were made 
in 1990 and in those early years, and even earlier, after the 
Oregon and the Arizona ran into one another, and we haven't 
repositioned, apparently, we've run some exercises, but I don't 
know if that's changed or not, and I'll leave that open for the 
record.
    But, if you look at the NOAA charts here, in hour one you 
had a fair shot at doing something with the concentration, and 
hour two you had a fair shot of doing something with the 
concentration, and probably even in hour six, given that there 
was calm seas, that there were calm seas. But, when the tide 
changed, the game was all over, in terms of picking up any 
volume of oil.
    Admiral Bone. I'd say, sir, within the first ten hours is 
really all you are going to have to get the volume of oil, 
because once it went to darkness you can't see oil in the 
water.
    Mr. Miller of California. No, I understand.
    Admiral Bone. So, you really only had ten hours to get what 
you are going to get.
    Mr. Miller of California. But again, I think this raises 
the question, if the threshold now is that in San Francisco Bay 
we have an oil spill that we can expect under today's 
conditions, and technology, and what we are doing with it, that 
about 80 percent will probably remain in the environment.
    Admiral Bone. Yes.
    Mr. Miller of California. You get some--I mean, even 
evaporated.
    Admiral Bone. Yes, sir. I think, again, I think you are 
right----
    Mr. Miller of California. That's just not going to work. 
That's just not going to work.
    Admiral Bone. --well, I know, but what I tell you is, and 
although I didn't even put it on here, the capacity, the 
maximum capacity required by law for a tanker is somewhere 
around 23,500 barrels per day capacity. I'm just talking about 
skimming capacity.
    So, if we said this was your largest tank ship that came in 
to here, they exceeded that almost three-fold in the actual 
response.
    What I was trying to tell Members was that, what they went 
out with was everything they had, very quickly, they brought 
more on, they were sending stuff up from Los Angeles area 
immediately on this spill, even though it was only reported 
what was reported.
    And, I was trying to explain to folks, they were responding 
to the worst case or a large case event, not to the most 
probable, all the things that are in the planning functions.
    I actually think that the performance by the contractor in 
this case far exceeded what our standard was, and that's why 
when people said we aren't driving them hard enough, you had a 
Government Federal on-scene coordinator, along with a State on-
scene coordinator, and if they weren't doing their job, we 
would take it over and we would direct the operation.
    Mr. Miller of California. But, again, looking at the NOAA 
data, Dr. Conner, you are welcome to join in here, but when I 
was at the Exxon Valdez, you know, we were skimming for months. 
We were just engaged in public relations, that game was over, 
you know, within a day or so, given the body of water there.
    And, the same thing is going on here, we can keep talking 
about how many skimmers we were applying after hour six, seven 
and eight, that's interesting, but they are not picking up 
much.
    Admiral Bone. Right.
    Mr. Miller of California. But, they look good out there.
    Admiral Bone. Well, they are getting, they are doing what 
they can to keep the rest of the water, I mean----
    Mr. Miller of California. Yes, I understand.
    Admiral Bone. Yes, sir, there was another 8,000, if you 
look at it, I mean, there was, in fact, the first day there was 
8,000, the fact that you had another 8,000 that didn't get into 
the wildlife areas, didn't, you know, injure more birds and 
mammals, I think was still worthwhile pursuing.
    Mr. Miller of California. I'd just like to raise one other 
point, and I'm sorry to use your time.
    Admiral Bone. Yes, sir.
    Mr. Miller of California. Mr. Lantos made a very specific 
point, we've known for many, many years where the Bay Bridge 
is. We have another hazard sitting there in the Bay rocks, and 
everybody knows where they are.
    Admiral Bone. Yes.
    Mr. Miller of California. But, they could rip the bottom 
out of any one of these ships at any given time, given the 
deviation that took place here in margins of safety, you are 
talking about 2,000 feet. I just want to raise that, because we 
don't have time to go into it.
    My colleagues have questions.
    Admiral Bone. I wouldn't argue that.
    Mr. Miller of California. Thank you.
    Mr. Cummings. Thank you very much, Mr. Miller.
    Let me just ask you this one last thing, and then we'll 
yield to the Speaker.
    And, this is something that has concerned me and you know 
this. You know, in the recent reorganization of the Coast 
Guard, the Service established sectors, is that right?
    Admiral Bone. Yes.
    Mr. Cummings. Which merged entities previously known as 
groups that were primarily responsible for Search and Rescue 
and Marine Safety Offices, which were primarily responsible for 
vessel inspection and compliance, environmental protection, and 
response to environmental situations. Marine Safety Offices 
included a Port Operations Department that specialized in 
pollution response.
    This specialty no longer exists as a specialty within the 
newly created sectors.
    I've said it before, and I'll say it again. I think post 9/
11 what we did was, we stretched the responsibilities of the 
Coast Guard, and I'm wondering do you believe that we now--and 
while we stretched the responsibilities we didn't necessarily 
bring along the expertise, didn't necessarily bring along the 
finances that were necessary to take on all those 
responsibilities.
    Do you think the Coast Guard has what it needs to do this 
kind of work?
    Admiral Bone. Let me first answer your question, I mean, 
respond to your statement about we no longer have the 
expertise. The reality is, we do have the expertise, we 
demonstrated it. We brought together people that did search and 
rescue, along with people who do oil spill response, 
collectively.
    Just like this case, you have a safety incident, at the 
same time you have a pollution incident. The pollution 
responder had seven years experience that came on scene. The 
marine inspector who went on scene to assess the damage had 17 
years marine safety experience. The petty officers that were 
assisting had three years experience, another one seven years 
experience in marine safety. We have the expertise, sir.
    And, in fact, you know, post 9/11 the assets that Congress 
gave us, the MSST boats, that's how we got, we had two MSST 
boats, one of them actually brought the marine inspectors and 
the investigation team over. The other one went and immediately 
started looking at, where's the oil, to help find out. We 
didn't have those before.
    I used--I'm a marine safety guy, I'm a prevention guy, and 
I do response. The reality is, years ago when it was a group 
and an MSO, if I called up and I said, I need a boat to go do 
an oil spill response, they'd say, wait a minute, this is a SAR 
boat. We don't do that.
    In today's environment, it's all under one head. You still 
have pollution response, and you have search and rescue, 
collectively. What you've done is, you've given synergy, this 
Congress has provided us more resources to actually make sure 
that we can go and respond to all threats, all hazards.
    The issue of marine safety that you are actually talking 
about is a capacity issue. What we did was, during this time 
frame, of this build up of security, we received more assets 
for the security portion of that job.
    At the same time, the industry grew almost 100 percent, the 
marine industry, and what we didn't do was keep pace with the 
resource base so that we could provide the services that the 
marine industry had come to expect, meaning within the time 
frames and within the level that they expect.
    The expertise, I'll just give another example.
    Mr. Cummings. Okay, I got that, we are running out of time.
    Admiral Bone. Yes, sir.
    Mr. Cummings. I guess I--you've been excellent in 
explaining to me all of the wonderful, the expertise we have. 
Then, what do we need to do? Just tell us that.
    Admiral Bone. You need, just exactly what the Commandant 
has provided you sir, we need the additional resources in 
marine safety, not that we don't have technical capacity, we 
need the additional resources within that so we can grow it to 
provide the services commensurate with the growth in the marine 
industry, especially, following Katrina, where the towing 
industry and the growth that the Gulf has seen is huge.
    The Port of Los Angeles Long Beach has almost doubled, but 
we haven't provided the number of marine inspectors, the number 
of marine investigators, to actually carry out that function 
with the service delivery that actually industry needs for 
efficient and safe operation.
    Mr. Cummings. So, in the meantime, we have a problem then.
    Admiral Bone. Well, what we have is an industry that's 
unhappy because they are not--they are getting delays. We 
aren't going to let the ship in until it's safe, but now we are 
telling them, wait offshore until we can get someone there.
    Mr. Cummings. Right. You are going to be on for the next 
panel.
    Admiral Bone. Sure.
    Mr. Cummings. Madam Speaker.
    Speaker Pelosi. Thank you, Mr. Chairman. I had not intended 
to speak again, just to take in the established facts that you 
are allowing us to do today, but I can't resist having heard 
the presentation of this panel. First I want to thank them for 
their presentation, and I thank you, Mr. Chairman, for giving 
us this opportunity to establish the fact, to recognize the 
needs, to see how this happened and how it can never happen 
again.
    At the opening of our hearing, the Mayor put forth some 
questions on the table that I had hoped would be asked by this 
panel. It's about time, time makes a difference in the 
response, as the Chairman, Chairman of his Education and Labor 
Committee, our distinguished Chairman, showed you, the time 
made all the difference in the world in the response.
    I still haven't heard anything from this panel that 
responds to the challenges put forth, or the questions put 
forth, by the Mayor of San Francisco and, therefore, the people 
of San Francisco.
    I'm very pleased that the official family, Aran Peskin was 
here earlier, so many members of the official family are here, 
speaking eloquently to the concerns that we have, because it 
happened right here. But, it spread to all of the districts 
that you see here, and again, this is a national resource.
    Admiral Bone, you know the respect that I have for the 
Coast Guard, we've been together on a number of occasions here 
in the Bay area, and I take great pride in commissioning the 
Pike and display that memorabilia in my office with great 
pride. And so, I am more willing to give the Coast Guard the 
benefit of every doubt in this.
    When the Commandant, Admiral Allen, called my office on 
Friday, a couple days after the spill, and told me that he was 
doing an investigation of how this happened, I said, Admiral, 
with all due respect, your credibility is greatly diminished in 
this, you cannot do a credible investigation of yourself, when 
so many of the questions that are arising from this are why 
didn't the people of this Bay area know, when that spill 
presented a health hazard to people who work there, recreate 
there, and the rest.
    So, I told him at the time that we would be calling for an 
independent investigation, and the NTSB, we've heard from Ms. 
Hersman, what I'm discouraged about, though, is that it will 
take a year, as Mr. Lantos indicated. that's just too long. 
It's just too long, especially, since this could happen again 
and nobody knows why anybody didn't call somebody and say this 
happened. It's ridiculous.
    So, I want you to know that in addition to what we are 
hearing here, I will be asking the Homeland Security Committee, 
which has jurisdiction in this matter as well, in the 
Appropriations Bill, Mr. Chairman, you and I have discussed 
this, to call for an Inspector General's investigation of how 
this happened as well.
    One way or another, sooner or later, and, hopefully, 
sooner, we will get to the bottom of this.
    Again, these Members up here have made this Bay a priority 
and their life's work, and their political careers as well.
    One of our former associates, Speaker Leo McCarthy, was 
instrumental when he was Speaker, he made this plan possible 
for the Bay, that we would protect it, and it just seemed to 
have--accidents do happen, we want to know why it was 
preventable, but the fact that all that time could go by, all 
that opportunity lost, is something that I don't understand, 
having listened for days and weeks now, and I think our--the 
people we represent deserve better answers than we are 
receiving.
    Again, I say that, as you know, with a special fondness for 
the Coast Guard, so it makes me sad. I was glad that Admiral 
Allen came out last week, a week ago, many of us who are 
gathered here walked the shore with him, to take a measure of 
what had happened in that week. We can do that every Monday, 
but the fact is, we need the answers, and we need them very, 
very soon.
    And so, before this panel was adjourned, I wanted you to 
know that with all due respect for all that you did present, 
this time gap is something that has had an impact, and we have 
to know why.
    Mr. Chairman, I want to thank you again for the attention 
you have paid to this, as soon as you knew what the gravity of 
the situation was, and I wish you had known that sooner. But, 
we didn't have that available to us.
    Thank you.
    Mr. Cummings. Thank you very much, Madam Speaker, and I 
think you can summarize what the Speaker just said by saying we 
can do better, we can do much better. The people of this great 
State and our country deserve it.
    We'll move on to our next panel, but thank you all very 
much for being with us. Admiral Bone, you can sit right where 
you are.
    Mr. Cummings. We'll now call up the next panel, panel 
three, Mr. David Lewis, the Executive Director of Save the Bay, 
Mr. Zeke Grader, Executive Director of Pacific Coast Federation 
of Fisherman's Associations, Captain Thomas Hand, Bar Pilot, 
San Francisco Bar Pilots Association.
    As I said a little bit earlier, we would hope that you 
would try to stay within your five-minute time period, and let 
me just make a suggestion that you are very fortunate to have 
Admiral Bone sitting right next to you. So, if there are some 
issues that you want to raise, this is the perfect time to do 
it, okay?
    Mr. David Lewis

  TESTIMONY OF DAVID LEWIS, EXECUTIVE DIRECTOR, SAVE THE BAY; 
 ZEKE GRADER, EXECUTIVE DIRECTOR, PACIFIC COAST FEDERATION OF 
 FISHERMAN'S ASSOCIATIONS; CAPTAIN THOMAS HAND, BAR PILOT, SAN 
                FRANCISCO BAR PILOTS ASSOCIATION



    Mr. Lewis. Thank you, Mr. Chairman, Madam Speaker, and 
Members of Congress.
    I am David Lewis. I'm the Executive Director of Save the 
Bay, and I'm grateful for the opportunity to add my brief 
testimony here. I hope my full statement can be made a part of 
the record.
    Mr. Cummings. So ordered.
    Mr. Lewis. Save the Bay, and our 10,000 members, as many of 
you know, have been working for almost 50 years to protect and 
restore San Francisco Bay, and we are just one of many 
organizations of volunteers and professionals who have worked 
in the last ten days or so to respond to this crisis.
    I have to acknowledge to you that our initial response was 
frustration, because of the outpouring of support from people 
who wanted to help, and not much opportunity to direct them 
usefully to do that. That quickly became anger, as we saw the 
extent of the spill, and I have to say as a Bay area native, 
and in my current capacity, that really my overwhelming emotion 
is embarrassment at the level of preparation and its clear 
inadequacies, for what Congressman Lantos underscored as a 
clearly foreseeable accident.
    I want to say that you are asking all of the right 
questions about this incident, and its cause, and its impact. 
The answers are really crucial for improving collision and oil 
spill prevention, and improving integrated planning for 
coordinated response between the State, Federal Government, 
local cities and counties, and volunteers, that over the long 
term can reduce the damage that future oil spills cause, 
because they are going to happen here in the Bay, and other 
parts of our marine environment, as long as we rely on oil.
    We do appreciate the heroic efforts the key agencies have 
made, including the Coast Guard, not just professional 
personnel, but also volunteers in the last ten days, but it's 
hard to conclude that the reaction and response was adequate. 
It was clearly too little, too late.
    Just commenting on some of the previous testimony, the 
issue of notification, and of publicity about the extent of the 
spill. The importance is really beyond, I think, the Coast 
Guard's official requirements in the plan, because it delayed 
the deployment of local resources, including volunteer 
resources. I think the plans need to account for that better in 
the future, but even in this incident, if we tell people we 
think this might be a worst case scenario, among the things 
that could be done would be the greater deployment of 
containment booms, not just around the actual ship and where 
the oil was spilling, but in these remote areas around the Bay 
where the tides, wind and currents are transporting this oil. 
There's no reason that we can't have plans that include every 
marina and local creek advocacy group to have these kinds of 
containment booms to prevent oil from getting into the more 
sensitive environments that are spread all around this Bay. So, 
I think that is definitely something worthy of your attention.
    Short term, as these clean-up efforts continue, I think 
it's very important that NOAA and the other State and Federal 
agencies have sufficient manpower and equipment, not just to 
work on the clean-up, but to do the damage assessment. They 
are, basically, collecting evidence that can be used against 
the responsible parties to make sure that we get all the 
restitution for the Bay and all the restoration resources that 
we should as a result of this.
    I think next and also important is the midterm planning. 
You know, we have the Environmental Protection Agency and other 
agencies that have experience with oil spills. When you leave, 
and the glare of the lights goes off, there's important work to 
be done in months two through six, and I've already encouraged 
the Resources Secretary, State Resources Secretary, to try to 
convene those agencies to look a little beyond the horizon and 
get that planning started.
    I'd rather focus my remaining time on how this is really a 
wake-up call, not just on the Bay's vulnerability to oil 
spills, but to the Bay's overall fragility and the urgent and 
overdue work that is needed to protect and restore this Bay. 
And, I have some specific suggestions in my testimony.
    It's really time to accelerate the restoration of tens of 
thousands of acres of shoreline habitat that's already in State 
and Federal ownership waiting to be restored to tidal marsh and 
related habitats. The Bay needs it, the scientists have told us 
the Bay needs it. The property, most of the property is already 
bought, but we need the resources to do that restoration work.
    Secondly, you have the largest urban wildlife refuge in the 
Nation, which Ms. Lofgren and her then boss, Don Edwards, 
helped to create years ago, and it's under funded. It's doubled 
or more in size in the last few years, and it doesn't have more 
resources just to protect and manage what is there, and it's a 
great resource for everybody in the Nation.
    We need to tighten restrictions on trash and other 
pollution that are getting into our Bay every day. Fifty-eight 
thousand gallons is a lot of bunker oil, but millions of 
gallons of untreated stormwater discharge are going into our 
Bay every day, and they are poisoning fish and wildlife and 
other marine habitat.
    And finally, we need to step up enforcement of Federal and 
State clean water laws and pollution laws, which, frankly, in 
the last decade have not gone enforced as tightly as they 
should have, against polluters, including sewage treatment 
plants, industrial facilities and other violators.
    I know that your jurisdiction is the Coast Guard, but with 
the Bay delegation Members of Congress here, I feel it's 
crucial to underscore those ongoing needs for the Bay.
    The Bay needs these actions to restore it to health, even 
more urgently after the devastating oil spill that we are 
suffering now, and the Bay area's quality of life and economy 
depend on a healthy and vibrant Bay, and we depend on your 
leadership to make that reality.
    So, if this Bay is a priority for all of you, as I know it 
is, those are some of the things we need to do in the coming 
year, and years, and we look forward to working with you to 
help to do that.
    Thanks for your support and concern, and for coming here 
today so quickly.
    Mr. Cummings. Thank you very much, Mr. Lewis.
    Mr. Zeke Grader.
    Mr. Grader. Yes, thank you, Speaker Pelosi and Chairman 
Cummings and Members. I really appreciate the fact that you 
have responded promptly to this oil spill by coming out here, 
and also appreciate the fact that you are cutting into your 
Thanksgiving holidays to be here with us to understand what 
happened.
    My organization represents working men and women in our 
West Coast commercial fishing fleet, and as you know fishermen, 
or commercial fishermen in particular, are probably those most 
impacted economically when one of these events happens. They 
are affected immediately as we've seen with the closure on the 
crab fishery, and I should say this is largely a de facto 
closure that the fishermen have put in, not the State.
    I also want to point out too, because they are not fishing 
right now, I also want to point out too that there's long-term 
damage assessment with these type of spills. Fishermen, for 
example, in Prince William Sound, as a result of the Exxon 
Valdez, is still feeling the impacts there, particularly, to 
their herring fishery, and that was 18 years ago. So, this has 
both immediate impacts, as far as contaminating fish life, and 
making it unsuitable for consumption, but also has long-term 
impacts as far as the health and viability of these fish 
populations.
    I want to thank, particularly, this group that's sitting 
here, because our West Coast Delegation, as the Mayor said, 
from the standpoint of the fishing industry, we really 
appreciate you. This group here, along with Congressman Mike 
Thompson, did a real job in trying to keep our fishermen alive, 
because as you know we've suffered now for at least three years 
of bad salmon seasons, much of them caused by this current 
Administration in their administration of water, both in the 
climate basin, as well as the Bay Delta, and I really want to 
thank you for getting that assistance to these fishermen, and I 
know how difficult it was.
    Turning now to the next disaster we have faced on our 
hands, is this what's happened now with this oil spill in the 
Bay. Let me just discuss two aspects of it with you.
    First of all, the fisherman's involvement in oil spill 
containment and clean-up can second some recommendations. 
Following Exxon Valdez, the passage of OPA-90, and here in the 
State of California the passage of Lempert-Keene-Seastrand, the 
private companies, as well as some of the agencies, contacted 
the fishermen about being involved in oil spill clean-up, and 
after all this made a lot of sense, they had the type of boats 
that they represented almost like volunteer fire departments, 
of resources out there that could be called in to place when an 
oil spill happened.
    We did see extensive training of much of the fleet during 
the 1990s. However, towards the end of the 1990s we began 
seeing a fall off of that. The oil response companies, the 
private companies, told the fishermen, well, there's simply no 
more money. Nobody said to them at any point that their 
performance was unsatisfactory, but up until that time there 
had been training, including deployment of containment booms, 
there had been certification, they had participated in drills.
    We then brought that, and had brought that repeatedly, up 
when we were talking with the Coast Guard, with Cal Fish and 
Games, OSPR, which heads up California's oil spill response, 
and also with NOAA. In fact, we brought that specifically to 
NOAA's attention, and I know that at least three of their 
sanctuary people, when they had their big drill out here in 
2006, said why aren't you using the fishermen, particularly, 
since they were shut down at that time because of what happened 
with the climate. We got no satisfactory answer, absolutely 
nothing.
    So, in turn, when this hit, many of the people were in 
port, in fact, we had a large fleet sitting in port waiting to 
put their crab gear on, ready to go, no one was contacted, not 
by the Coast Guard, not by OSPR, not by the private contractor. 
On Thursday, the head of the Crab Boat Owners Association, 
which represents the local fishermen, contacted the Coast 
Guard. He was told, well, we don't need your help. If you want 
to help at all, you can volunteer to clean birds.
    Finally on Saturday, the Port of San Francisco took it upon 
themselves, with their existing funds, and contracted with 20 
fishermen. They were then put out in the water and worked until 
at least Tuesday, and they were effective out there. They put 
HAZWOPER people on board, and they were effective. Had they 
been called in within hours of the spill, we might have 
contained much more of this, but, basically, they were simply 
ignored.
    Also occurring at that time too is that we had asked for 
the closure on our fishery, the spill happened Wednesday, the 
following Wednesday we finally did get a response, and that was 
pretty anemic or lame, I would say, because only a very small 
part of the area was closed. Fortunately, most fishermen were 
refusing to go until we could get testing to make sure the crab 
are going to be safe, and we hope to have those tests in fairly 
soon.
    But, let me talk specifically about six recommendations we 
would have for you to take and consider. First of all, we need 
to have a provision, not just leaving it up to the private 
contractors, but mandate that we utilize local fishermen, this 
could also be charter fishing boat operators, the tugboat 
operators, and others, in our oil spill contingency plans. You 
can't leave that up to the volunteers, we have to tell them to 
do it.
    Second, I think within the Unified Command you have to make 
sure that the local agencies are part of it, not outside the 
door with a liaison running back and forth. I think we could 
have done lots better had groups such as the Port of San 
Francisco, the National Park Service, the Sanctuary, involved 
in that room, not shunted outside.
    Third, I think we have to do a better job of finding out 
how to utilize local knowledge, not just here, but everywhere. 
That was one of the important lessons that's come out of the 
oil spills in Alaska, particularly, the one that occurred in 
2006.
    Fourth, I think we need to have better oversight of these 
private clean-up companies. If we are, basically, going to 
establish what I would call private fire departments, then we 
better damn sure make sure that we have some public oversight, 
and we haven't seen that for the past six or seven years, at 
least not effective oversight.
    Fifth, we need to have funding, and Mr. Lewis has already 
mentioned that, to make sure that the long-term damage 
assessments get done, that once this subsides and all the 
cameras have gone away, that we not forget about it, because as 
we know in the case of Exxon Valdez, that impact is still 
there.
    And finally, I think, and, perhaps, this has been answered 
by Speaker Pelosi's suggestion, but we had thought that, 
perhaps, an independent commission, similar to what we had 
after Exxon Valdez, is needed, not because this is an oil spill 
of that magnitude, but simply we better be prepared when we do 
have an oil spill of that magnitude or some other worse event, 
and we certainly weren't prepared for this one.
    Finally, if I can, Mr. Chairman, I do want to commend two 
groups that we really thought really came through, when most 
every other agency botched it. One is the Port of San 
Francisco. They were absolutely magnificent in all this. 
Second, I want to point out, specifically, the Beach Watch 
Volunteers of the Gulf of Farallones. They weren't trained out 
of Seattle or Washington, this is a program they've had ongoing 
here for 25 years, and it existed primarily because of members 
of this panel right now who made sure that they had the funding 
to keep that going, and they really did a yeoman's job. And, I 
also want to commend members of my own fleet, who I thought did 
a great job in the little bit of oil spill clean-up that they 
got to do.
    Thank you again, Mr. Chairman.
    Mr. Cummings. Thank you very much, Mr. Grader.
    Captain Thomas Hand.
    Captain Hand. I guess it's good afternoon, Madam Speaker, 
Mr. Chairman, and Members of the Committee.
    I am Captain Thomas Hand, a San Francisco Bar Pilot. Thank 
you for inviting a San Francisco Bar Pilot to speak today, at 
least I hope I can say that at the end of this session.
    I hold a U.S. Coast Guard Unlimited Master's License. I 
have been a professional mariner for 45 years, including 18 
years as a Panama Canal pilot, and 17 years as a San Francisco 
Bar Pilot.
    The San Francisco Bar Pilots have navigated vessels in San 
Francisco Bay and tributaries for over 155 years. We service an 
area that includes the entire San Francisco Bay, and the Ports 
of Stockton, Sacramento and Monterey Bay.
    The waters of the San Francisco, Monterey, San Pablos and 
Suisun Bays, from the Gulf of Farallones to the Sacramento 
Delta, include nine bridges, 11 ports, 200 miles of shipping 
lanes, and countless hidden dangers.
    It is the job of the San Francisco Bar Pilots to know every 
fathom and every nautical mile. By California law, every vessel 
in excess of 300 gross tons, moving within waters under the 
jurisdiction of the Board of Pilot Commissioners, is required 
to use the services of a San Francisco Bar Pilot.
    Last year, the San Francisco Bar Pilots handled 
approximately 10,000, I repeat that, 10,000 vessel transits. 
Since 1986, a comprehensive training program, lasting 
approximately two years, geared specifically to the exceptional 
demands of barrier waterways has been a condition to becoming a 
San Francisco Bar Pilot.
    After apprenticeship and licensing, every pilot continues 
professional training to stay current in all vital areas.
    An applicant for the training program must be, at minimum, 
hold a valid U.S. Coast Guard Master's License, with a radar 
endorsement. He or she must have at least two years command or 
piloting experience, and a Federal pilotage endorsement.
     As a State licensed San Francisco Bar Pilot, I am subject 
to the oversight, including disciplinary oversight, of the 
Board of Pilot Commissioners for the Bays of San Francisco, San 
Pablo, and Suisun.
    The Board selects among applicants for available pilot 
positions, establishes and administers the training 
requirements, both initial and continuing, for the pilots, 
issues licenses, oversees the operation of the Bar Pilots, 
investigates incidents on the vessels piloted by Bar Pilots, 
and takes remedial and punitive action against pilots when 
appropriate.
    This is a thorough, comprehensive and active regulatory 
system.
    The pilots take their professional responsibilities to 
vessel owners they serve and the communities in which they work 
very seriously. We are proud of our long history of safe 
navigation.
    Up to last week, the last major accident on the Bay was 
when two tankers collided near the Golden Gate Bridge in 1971. 
Neither vessel in that incident had a San Francisco Bar Pilot.
    I am here to answer your questions about pilots, piloting 
and the pilotage system in San Francisco Bay and its 
tributaries.
    Thank you.
    Mr. Cummings. Thank you, thank you all very, very much.
    I think what I want to do is go straight to Ms. Lee, and 
I'll defer my questions until after my other colleagues have 
asked theirs.
    Ms. Lee.
    Ms. Lee. Thank you very much, Mr. Chairman. Let me thank 
you and our Speaker for your leadership and for these field 
hearings today. This is a very important moment for the entire 
Bay area, the State, and our country.
    As you know, the vessel actually departed from the Port of 
Oakland, which is located in my congressional district, and I 
wanted to mention that the Port of Oakland has gone on record 
to declare a local emergency in the port area of Oakland and is 
proceeding expeditiously with response activities.
    Also, on Saturday I had the opportunity to be with many of 
the volunteers in Berkeley, and I must say, and I want to join 
with all of my colleagues in commending the volunteers, because 
in spite of their outrage at what had happened they were moving 
forward with the clean-up under very treacherous circumstances. 
And so, I just want to also commend and thank the volunteers 
for this.
    Mr. Lewis, let me first of all thank Save the Bay and all 
of our environmental organizations. Save the Bay, of course, is 
again located in my congressional district in Oakland, and want 
to just say that the volunteers, as you see this, and as you 
mentioned, were in many ways, and again, Congresswoman Lofgren 
said that it doesn't surprise any of us that we had many, many 
people willing to volunteer, because of the treasure that we 
all have attempted to preserve over the years with regard to 
the Bay. But, I know, because I heard this over and over again, 
that there were many offers of assistance, but many of these 
offers were refused.
    And, I want to get, from your perspective, Mr. Lewis, what 
exactly occurred from Save the Bay's point of view that 
prevented volunteers from moving forward? Was it only training? 
Was it lack of communication? Was it delay time? Or, what were 
the reasons?
    Mr. Lewis. I think in the middle of a crisis is a bad time 
to try to put together a plan, and sometimes that's necessary. 
So, I've seen the stacks of binders, loose-leaf binders, and 
plans from the State, and Federal agencies, it's pretty clear 
that they did not anticipate using, not just volunteers who 
hadn't been trained for technical skills, but the enormous 
number of personnel here in the Bay area from cities and 
counties who have appropriate training to do this work.
    And, I received calls from San Francisco City officials 
over the weekend after the spill as frustrated, that they had 
trained personnel, firefighters, others with HAZMAT training, 
who could have been deployed, and I'm sure that's true for 
other cities and counties around the region.
    So again, instead of focusing on finger pointing, I think 
one big take away is that, and this is not true everywhere, you 
know, there are less populated areas of the Coast and open 
ocean where a spill like this couldn't benefit from that, but 
we have 7 million people here, nine counties, over 100 cities, 
and that's a lot of trained personnel.
    So moving forward, obviously, you have to have Incident 
Command and key agencies at the center of a response, but the 
next concentric circle should include the cities and counties 
that have these resources, and then a third circle of 
volunteers, maybe some of them have training and are already at 
the ready or on call, others who can be trained on short notice 
to do important work.
    Ms. Lee. Thank you very much.
    And, my second question is, in terms of just our entire 
ecosystem, and the wildlife, do you think we need to take our 
ecosystem in better consideration as we develop future plans, 
or do you believe they are, primarily, the mechanisms now are 
in place for the actions and for the protection of the 
ecosystem?
    Mr. Lewis. I think there needs to be better emphasis on 
preventing these kinds of accidents, but an awareness that 
accidents are going to happen, and that the next one will not 
be the one that we've prepared for the last time.
    What that means is that, this ecosystem, which is so 
important to the State and the Nation, and, really, of 
international significance, is so stressed because we've 
treated it poorly for a very long time. And so, an incident 
like this, which is a small spill, a devastating spill, but a 
small spill, has more of an impact on the ecosystem because 
it's so stressed, because it's so fragile.
    The fisheries, the wetlands, the birds, some of these are 
endangered species, some of them are just threatened species, 
all of them are at risk. So, yes, we need more of a commitment 
to strengthen the ecosystem at the same time that we try to 
prevent accidents like this from occurring in the future.
    Ms. Lee. Okay, thank you very much.
    And, Mr. Chairman, I hope, as we move forward, some of the 
recommendations which Mr. Lewis mentioned earlier will be a 
priority on the list of recommendations that the Committee 
comes forward with, because I think it's very important that 
the funding be there, and all of the other issues that Save the 
Bay and other environmental organizations have presented, be 
part of the record.
    Mr. Cummings. Yes. I can tell you, we are very fortunate to 
have the Speaker right here, and she has a lot of passion with 
regard to this issue. So, enough said.
    Ms. Woolsey.
    Ms. Woolsey. Thank you very much, Mr. Chairman, and thank 
you, Madam Speaker, for today's hearing, and thank you, Zeke 
Grader, for being here.
    It might be apparent to everybody, we each got to pick our 
own person to talk to, and ask questions of, and, Zeke, I'm not 
going to call you Mr. Grader because nobody knows Mr. Grader, 
we all know Zeke Grader, I picked you, because I wanted to, 
before I asked you questions, I wanted to acknowledge once 
again how important the role of the fishing industry, your 
fishing fleet, and the fisheries are in proving your 
stewardship about our waterways, and how important your voice 
is, and has been, and continues to be, and following a very 
poor, well, salmon seasons, and now a threatened crab season, 
how it is so clear that the safety of the consumers, the value 
of our fisheries and our fish, are so much more valuable than 
threatening it with any kind of fishing that wouldn't be 
appropriate.
    I just appreciate you, and I want all of us to appreciate 
you, because you make such a difference.
    Now, speaking of experienced volunteers, your fishing fleet 
couldn't be more experienced, trained, ready, and you told us 
the hard time you had getting out there. So, would you tell us 
now, on top of that, lay out for us the resources that 
fishermen can bring quickly to a spill, when you are invited 
in.
    Mr. Grader. Thank you, Ms. Woolsey.
    As I mentioned, here in the Bay we had, because of the 
beginning of the crab season, we had had probably a couple 
hundred, maybe a hundred anyway, I should say 200 to 300 in 
this immediate area, within the Gulf of the Farallones, fishing 
vessels that were getting ready to go crab fishing. These boats 
could have all been utilized.
    Many of these boats are small, they can get into areas 
where some of the larger container vessels and clean-up vessels 
cannot, so they are important. They can get out and span out on 
the Bay, or in the case of the ocean, both I know the Half Moon 
Bay Association had attempted to participate in some of the 
ocean clean-up here, the Bodega Bay fishermen, both cases we 
have both large and small vessels that are capable of getting 
out and really, at least augmenting this oil spill so we could 
clean it up quicker and clean up more of it, I think, and it's 
just a shame not to be able to utilize these vessels the same 
way it was a shame we didn't better utilize the volunteers we 
have here around the Bay area in helping do the beach clean-ups 
and help with the wildlife.
    So, I mean, it's there, and we could not, did not know why, 
you know, they canceled these contracts in the '90s, after 
people had been trained, nor why the agencies, and I say at 
least two of the agencies, three of the agencies, actually, 
two, both NOAA, and the Coast Guard, and Cal Fish and Game, did 
not act to try and make sure that those vessels were at the 
ready, nor did the private responder.
    Ms. Woolsey. So, would you have the absorbant booms with, I 
mean, how would you get your fleet, get a hold of those booms, 
to do the work?
    Mr. Grader. What had happened in the past is, we had the 
equipment, booms, other clean-up materials, placed in strategic 
locations around the Bay or along the coast, where they could 
go to get them. It's sort of like, you know, again, a volunteer 
fire department. First you put out the call to bring all the 
firemen there, then they go to the fire house, they get their 
gear, they get their trucks, whatever, and go out. It's the 
same sort of concept here. It's not really new, we've been 
doing it for about 200 years in this country, and we could have 
been doing the same thing here, utilizing, better utilizing 
them, and they simply chose not to.
    I don't know if it was complacency or the fact that these 
agencies had other things that they felt were more pressing, 
but, you know, like I said, we have taken a relatively minor 
spill and turned it into a major mishap.
    Ms. Woolsey. And, are there appropriate containment booms 
for different areas of the Bay, based on tide and winds, that 
we should have in place?
    Mr. Grader. I think this would be part of an overall 
oversight of this. I think we need to have oversight of what 
our capabilities are. I think that's long overdue, and that's 
the reason I think an independent look at all of this, whether 
it be the IG's recommendation or an independent commission like 
we had after Exxon Valdez, you know, either one, just so we get 
the job done, because we really do need to have the oversight 
and determine what it is we need and have it in place.
    Ms. Woolsey. Thank you, and, Mr. Chairman, this is the 
voice of a non-bureaucrat, who is an experienced and trained 
volunteer.
    Mr. Cummings. Believe me, I can feel his passion up here, I 
really--and I really mean that, and I want to thank you, I feel 
all of your passions.
    Ms. Richardson.
    Ms. Richardson. Thank you, Mr. Chairman.
    First of all, I'd like to applaud Speaker Pelosi for her 
leadership on this issue. Although this is in her own backyard, 
we would be really doing a disservice to all Americans to not 
realize that this 110th Congress has had priorities set before 
it, and one of them absolutely has to do with the environment 
and our responses, and our responsibility, as Members of 
Congress.
    So, Speaker Pelosi, Members of the Northern California 
Delegation, and Chairman Cummings, thank you for bringing us 
forward so quickly.
    Before I go into my very brief questions, I just wanted to 
say as a recap of some of the comments, particularly, Admiral 
Bone, that I'm concerned with, that I heard you discuss. You 
said of our Coast Guard, there are people who serve the public, 
you didn't believe information was withheld intentionally, that 
reasonable actions were taken, national standards exist, and we 
didn't anticipate volunteers.
    Let me say, first of all, just because we serve the public 
doesn't mean we are immune to not responding appropriately. 
When we talk about responsible actions, this was an incident 
that required extraordinary actions. So, reasonable is not 
acceptable, when we have tragedies we need people to go to the 
next level.
    And, when you speak about national standards, we have to, 
as regions, adjust, just because we have national standards 
doesn't mean that they are appropriate.
    In my area, 45 percent of the Nation's cargo goes through 
my area. So, if my area is only basing itself on national 
standards of other areas that may be only take up 5 percent, 
it's not going to be adequate.
    So, let me go to my questions, which are for Captain Hand 
that we have with us.
    Is it standard for a pilot to continue if radar is deemed 
inoperable?
    Captain Hand. I would think it would depend on where the 
vessel is at the time that you have to make that decision.
    Ms. Richardson. Well, according to the National 
Transportation Safety Board, the pilot said he had concerns 
about the radar on the ship. According to one report, it conked 
out twice, once before departure from the port, and once after 
the vessel was underway.
    So, my question is, in that instance would it be standard 
for a pilot to continue?
    Captain Hand. In all due respect, not having been in that 
situation, I can deal with the hypothetical, obviously, if I 
was in a position myself, and I boarded a ship, and the 
equipment that I was counting on to get from A to B is not 
functioning properly, then I would not go.
    In fact, I think if one of your radars does go out, it's 
supposed to be reported to the Coast Guard.
    But, as I say, I wasn't in this, I don't know all the 
details. It could have been that the radar just wasn't tuned 
properly, I mean, I don't know the details.
    Ms. Richardson. My second question is, are pilots required 
to be familiar with electronic chart systems?
    Captain Hand. We are trained in electronic chart systems. 
We are constantly, we are constantly being trained, and now 
more and more pilots are beginning to use their own laptops, 
but they are not recognized by the IMO, I mean, so the ships 
that have the electronic charts, yes.
    You have to understand that pilots go on many different 
types of ships, face many different types of equipment, and so 
there's an educational process, and the more experience you 
have, the more you learn.
    Ms. Richardson. Well, in this case, I believe the pilot had 
experience of 26 years in this particular area, and stated that 
he was not familiar with the electronic charts.
    My third question is, is it possible for radar and 
electronic equipment to work intermittently, meaning, be on, be 
off, going back and forth?
    Captain Hand. It is possible.
    Ms. Richardson. Okay. My final question is, the records 
indicate that the pilot had been involved in four ship handling 
incidences in the past 14 years, and had been reprimanded the 
last year for errors in judgment for running a ship aground.
    Should an individual with these types of instances, the 
history and their background, have been piloting this type of 
vessel? And, if so, what steps does your organization take to 
ensure that your pilots are able to better perform their duty?
    Captain Hand. As to whether he should be piloting, that's 
in the hands of the State Board. We, as a group, do not control 
that. I mean, it's the State Board of Pilot Commissioners, and, 
obviously, whatever rulings they made it was in their decision 
to allow him to continue piloting.
    So, I don't know how else to answer that, and I don't know, 
quite honestly, all the details of those incidents.
    Ms. Richardson. Well, according to an L.A. Times article 
that was stated, the Board of Commissioners, Board of Pilot 
Commissioners, Captain Patrick Maloney, had stated that this 
particular pilot was slightly below the average of the 61 
Master Mariners in this particular area.
    So, are there any other suggestions you could give us as 
your association of how we could ensure these pilots can 
respond?
    Captain Hand. Again, with all due respect, I think that 
question should be posed of Captain Maloney, and to me, I don't 
believe everything that I read in the newspapers.
    Ms. Richardson. You sound like a politician.
    As I close here, I just want to say that this has done 
tremendous damage, not only to the residents, to the 
environment, to the businesses, and industries, but what I want 
to stress is that although we are here in the Bay area, and 
this happened in the Bay area, this is, unfortunately, a 
perfect example of the fact that this Nation still fails to be 
properly prepared to respond to a disaster, and that's alarming 
to all of us.
    Thank you very much.
    Mr. Cummings. Thank you.
    Mr. Lewis, let me just ask you, you had in your prepared 
remarks you said the Coast Guard's preparation and performance 
before, and during, and after this accident, you said that 
there were shortcomings. Do you recall that?
    Mr. Lewis. Yes.
    Mr. Cummings. And, what did you deem those shortcomings to 
be?
    Mr. Lewis. Well, I think that the investigations will 
reveal that in full, but at minimum there are shortcomings in 
planning. I am in no position to fault the execution of 
particular individuals in the Coast Guard, I have a deep 
respect for the Uniformed Services, and, actually, worked in 
the United States Senate on Armed Services issues for many 
years. So, I think that's why you do investigations, and that's 
why you take an independent look at what happened, so we can 
see if there were actually failures of execution.
    But, I think at minimum what we've seen is that there needs 
to be more and better planning, and at the Coast Guard level, 
again, at minimum, that would include a broader approach to 
Incident Command that includes other capabilities, resources, 
and agencies, at an appropriate level.
    Mr. Cummings. Admiral Bone, I just keep going back to this 
time period, you know, the 140 gallons, and then the 58,000 
gallons, and I've got to tell you, it's troubling. I mean, I've 
listened to all the testimony, and the only thing I guess I can 
conclude is that we--and then when I heard the testimony with 
regard to the average amount of oil recovered it seems to me 
that we may have low expectations here.
    And, I think that we deserve better than that. I think that 
we, as Americans, deserve better, and you've heard me in 
talking to the Admiral about the Coast Guard, I just think that 
we need to raise our standards a little bit higher. I think it 
was Mr. Miller, Congressman Miller, that was going into that 
line of questioning.
    You know, and then I listen to Mr. Grader and talking about 
the fishing industry, and how, and I could feel your passion, I 
could feel it, I don't even know you, but, I mean, seriously, I 
could feel that you felt the pain, and not just for your 
fishermen, but for the environment.
    And, as I was listening to both of you, I couldn't help but 
think about something that in Florida, in Disney, I guess it's 
Disney World, in Florida, when I took my daughter there last 
summer, it had, over the Animal Kingdom it has this statement, 
it says, ``We did not inherit our environment from our 
foreparents, we borrowed it from our children.''
    And so, you know, I just--I'm wondering whether we are 
having these low standards, and as a result of that low 
standards, and being caught up in an atmosphere of mediocrity, 
that's what I feel, those are my words, Admiral, whether we 
then let our children down.
    You know, it just seems to me that we can do better. This 
is the United States of America, this is--I mean, this is a 
country that sends people to the moon, and it seems as if we 
would be able to figure out something between 140 and 58,000. I 
mean, if you told me 588,000 I wouldn't feel so bad, but 
58,000, with a 200 foot gash in a boat, in a ship, I mean, it 
just--but I'm hoping that as we go along, and, Ms. Hersman, I'm 
glad you are still here, I'm hoping that as the NTSB goes 
through its investigation that you will bring to it the 
feeling, the urgency of all these Members up here, because 
their passion is strong too. I mean, they want this thing 
resolved.
    And, as Ms. Richardson said, this is not just about San 
Francisco. I mean, this kind of thing can happen in the 
Chesapeake Bay, where I live, and so--and it can happen all 
over this country. So, that would, I just hope that we can do 
better.
    Did you want to say something, Admiral?
    Admiral Bone. Yes, sir, I know we can do better, and I 
think we are already doing better. I think the Mayor brought up 
one of the most important points, and that was the 
inclusiveness of the City, not just in the planning, but in the 
exercises.
    I think the reality in today's environment, in a post 9/11, 
is that we have to--these plans were written around just oil 
spill response, and in today's environment we have to really 
look at all threats, all hazards.
    We have, as he said, a state-of-the-art command and control 
and information network that was put together around emergent 
issues with security. We have to bring our planning processes 
together. We have to bring our command and control and Unified 
Command processes together, in order to do this better.
    One of the things that actually Congress has directed us is 
to put integrated command centers in place, so we've yet been 
able to accomplish that, but it would have linked this 
communication gap, we would have been together. We will be 
together without those centers, but it surely would have 
provided the State, the Federal, and the local collective eyes 
on scene when the information came in, and disperse out, for 
all threats, all hazards, for security.
    And, I'd offer that the Members here, and I've heard what 
they've said, I don't disagree at all that we could have used, 
and informed better, the people to boom their local areas. We 
can do that today. We can do that tomorrow, and we'll work 
towards that. We could have used emergency responders in the 
City of San Francisco, and I've committed to the Mayor to go 
forward and do that.
    I'm not going to wait until NTSB comes out to say this is 
what you need to do. We are going to do that. And, as far as 
the fishing boats, it was actually on day three when I came in 
and I turned to the Unified Command and I said, are we using 
the fishing vessels? We need to find a way to use these other 
vessels in order to increase our capacity and capability.
    And, they moved forward and the City actually stepped up 
and said, we will coordinate that, and we'll lead that. And, 
the liaison effort, exactly, in the post 9/11 environment we 
have to have better coordination, better use of volunteers and 
people, and not just what I'll call non-governmental entities, 
we've done all this planning with government entities, with 
industry. Industry brings a tremendous amount of capacity. We 
learned that after 9/11. Who do you think restored, and the 
whole business continuity issue, we have a lot--we can do 
better, and we are going to do better, and we will do better, 
and the Commandant, as you know, as you Members know, has 
committed to an ISPR process, which is an incidence 
preparedness review for this spill, which will look at those 
readiness issues, will look at the planning process issues, and 
will look at our response.
    And, I can tell you that he's not--he put 90 days on this, 
he didn't put a year, he said 90 days I want a report, it's 
going to be made up of Federal, it's going to be made of State, 
local and industry representatives. We are not going to wait, 
we are going to move forward, sir, and I want to make sure all 
the Members here know, I'll be moving forward in deliberation 
and process to make sure that's done.
    Mr. Cummings. We are going to close down the hearing in a 
minute, but I want to, again, thank all of our witnesses for 
being here, and I want to thank--I'll tell you, one of the 
things that has moved me more than anything else is the fact 
that so many volunteers came forward. That says a lot. People 
that were willing to take their time, perhaps, risk their 
health, because they wanted to make something, an environment 
better for others. That says a lot. Nobody was paying them.
    And, it seems to me that if they can do that, we ought to 
be able to do our part, to make sure that we maintain a safe, 
and clean, and healthy environment.
    And, Madam Speaker, I want to thank you for your 
leadership. The urgency and the fact that you care so much 
about these issues, and long with all of our Members, I thank 
all of you. I've done a lot of hearings across the country, but 
never have I seen this kind of response from the local Members 
to come out and to give it everything they have, and I want to 
thank all of you. I truly do.
    And, to the people in this area, you have given us, in the 
Congress, the catalyst to do everything that we can to make 
sure that we leave a tremendously wonderful and better 
environment than the one we found when we were born, and we are 
going to work hard, and this is not the end.
    A number of the reporters have asked me a little bit 
earlier, where do we go from here. What we were hoping to do is 
shine some lights here, and I think we've shined some. I can't 
say that I've been satisfied with all the answers. I agree with 
the Speaker, there are some things that I'm still unsatisfied 
with, but we're going to get to the bottom of it.
    And, Madam Speaker, I want to thank you, too, for moving 
towards the IG investigation, because I think we need to shine 
as many lights as we possibly can, and we need to look under 
every single rock, and I think somebody said that they hoped 
that we would be around four or five years from now, so that 
when we look under those rocks we can see what was happening. 
Well, we plan to be there until this thing is completely 
resolved.
    And so, with that, Madam Speaker, I'll yield to you.
    Speaker Pelosi. Thank you very much, Mr. Chairman.
     Once again, I want to commend you for your leadership 
immediately upon learning of this spill, and then the plans 
that you made to be here for this important hearing.
    I join you in saluting the volunteers, that's a reflection 
of the appreciation we have for San Francisco Bay, in terms of 
its vitality, of its commercial importance, of its recreational 
significance and its environmental just value that we place on 
it.
    I know I speak for all of my colleagues when I thank you 
for holding this hearing. You speak to their presence here, and 
I salute them as well. They are here because they are always 
here about the Bay, they, the word goes out and we are there.
    As I said, many of us were with the Commandant last week 
when we walked the beach, but we were all there when we 
dedicated the Don Edwards Refuge. Every piece of it is 
important. You remember that the, every piece of this is very, 
very important to us.
    And so, I am pleased especially, I know again my colleagues 
want us to give a special last welcome to Laura Richardson, a 
Member of Congress just for a few months, on this important 
Committee, and taking the time from coming from Southern 
California, a Member of this Subcommittee, to help Mr. Cummings 
when we go back to proceed with this.
    I look forward to the ongoing work of the Subcommittee. 
Congresswoman Lofgren sits on the Homeland Security Committee, 
and it is that Homeland Security Department which her Committee 
oversees that we are asking the IG of that department to launch 
an investigation.
    Something is missing in this picture. Time equaled clean-
up, 20 percent may be satisfactory to you, Admiral, mediocre to 
the Chairman, but could it have been better, even in the 
interest of--even with the difference in those hours.
    So, recognizing the importance of it, I'm so impressed with 
the turnout that we have for this hearing as well, and the very 
serious interest that everyone has taken in it.
    I want to add to the comments of our colleagues in 
commending Zeke Grader, and Captain Hand, the Bar Pilots, Mr. 
Grader from the fishermen here, and Mr. Lewis from the Bay 
keepers, it is--your work, Save the Bay, excuse me, Save the 
Bay, your work is so important, and little did we know a month 
ago that we'd all be sitting here in a hearing of this kind 
without really the adequate answers for us to give those 
stakeholders and this magnificent resource that God has given 
us, the San Francisco Bay, and all that it flows out to.
    But, answers we will get, the sooner the better, and we 
simply could not treasure and value it without the work and 
leadership that all of you provide.
    So, thank you for that leadership.
    And again, Mr. Chairman, I want to give you a big San 
Francisco applause, for our Chairman.
    Mr. Cummings. Thank you very much, Madam Speaker, and with 
that we will adjourn this hearing.
    Thank you.
    [The Subcommittee was adjourned at 12:50 p.m.]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
                                    

</pre></body></html>
